No. ______________
_________________________________________________
IN THE SUPREME COURT OF THE UNITED STATES
_____________
KAUFMAN COUNTY; MATTHEW HINDS, PETITIONERS
V.

EUNICE J. WINZER, Individually and on Behalf of
the Statutory Beneficiaries of Gabriel A.
Winzer; SOHELIA WINZER; HENRY WINZER,
RESPONDENTS
_____________
ON PETITION FOR A WRIT OF CERTIORARI TO THE
UNITED STATES COURT OF APPEALS
FOR THE FIFTH CIRCUIT
_____________
PETITION FOR A WRIT OF CERTIORARI
S. Cass Weiland
Counsel of Record
Robert A. Hawkins
SQUIRE PATTON BOGGS(US) LLP
2000 McKinney Avenue, Ste.1700
Dallas, Texas 75201
(214) 758-1500
(214) 758-1550 (fax)
cass.weiland@squirepb.com
Counsel for Petitioners

i
QUESTIONS PRESENTED FOR REVIEW
On the morning of April 27, 2013, Deputy
Sheriff Matthew Hinds and fellow officers were
dispatched to a rural neighborhood in Kaufman
County, Texas, after 911 dispatchers received panicked
phone calls from neighbors reporting that a suspect
was terrorizing the neighborhood, threatening them,
and brandishing and/or shooting a handgun. Shortly
after Hinds’ arrival at the scene, the suspect, whom
Hinds spotted in the middle of the roadway, fired a
gun in his direction. After losing sight of the suspect
among houses and trees, Hinds and other arriving
officers slowly approached his last known location.
Gabriel Winzer suddenly emerged into the roadway
riding toward the officers on a bicycle. After seeing
that Winzer appeared to be carrying a weapon, one of
the officers stated he had “that gun” and another
officer yelled for Winzer to “put the gun down.”
Shortly thereafter, Hinds and the officers opened fire;
Winzer was shot, fell off his bicycle but arose and
disappeared again. The officers located Winzer nearby
in the backyard of a residence where he later passed
away.
1.

Did the Fifth Circuit panel majority err in
reversing
Kaufman County’s summary
judgment after concluding Officer Hinds did not
violate clearly established law?

2.

Did the Fifth Circuit panel majority improperly
retain Kaufman County as a defendant by
concluding that Officer Hinds may have violated
a constitutional right by evaluating his use of

ii
force from the perspective of the Respondents?
3.

Did the Fifth Circuit panel majority improperly
second-guess the reasonableness of Officer
Hinds’ use of force without due regard to the
circumstances he encountered?

iii
PARTIES TO THE PROCEEDING AND RULE
29.6 STATEMENT
The parties to the proceeding in this Court are
listed in the caption of the case on the title page. No
corporations are involved in this proceeding.
Other proceedings in other courts that are directly
related to this proceeding include:
x

Winzer, et al. v. Kaufman County, et al., No.
15-cv-1284, U.S. District Court for the
Northern District of Texas. Judgment
entered October 4, 2016

x

Winzer v. Hinds, et al., No. 15-cv-1295, U.S.
District Court for the Northern District of
Texas. Judgment entered October 4, 2016.

x

Winzer, et al. v. Kaufman County, et al.,
916 F.3d 464 (5th Cir. 2019), U.S. Court of
Appeals for the Fifth Circuit. Judgment
entered October 29, 2019.

Bill Cuellar and Garry Huddleston were
defendants – appellees in these underlying proceedings
but were dismissed by the district court, which was
affirmed by the Fifth Circuit. Consequently, they are
not parties to this petition.

iv
TABLE OF CONTENTS
QUESTIONS PRESENTED .................................. i
PARTIES TO THE PROCEEDING AND
RULE 29.6 STATEMENT ..................................... iii
TABLE OF CONTENTS ........................................ iv
TABLE OF APPENDICES .................................... vi
TABLE OF AUTHORITIES .................................. vii
PETITION FOR A WRIT OF CERTIORARI ........ 1
OPINIONS AND ORDERS BELOW ..................... 1
JURISDICTION ..................................................... 2
CONSTITUTIONAL AND STATUTORY
PROVISIONS INVOLVED .................................... 2
STATEMENT OF THE CASE ............................... 3
REASONS FOR GRANTING THE PETITION .... 9
I. The Panel Majority Improperly Reversed
Kaufman County’s Summary Judgment in the
Absence of a Violation of Clearly Established Law
........................................................................... 10

v
II. The Majority Opinion Misapplies the Standards
Governing Qualified Immunity Articulated by
this Court in Determining Whether Officer
Hinds Reasonably Perceived a Threat of
Imminent Harm
......................................................................... 13
III. The Panel Majority’s Analysis of Hinds’ Use of
Force Contravenes the Fifth Circuit’s and Other
Circuits’ Decisions Holding that a Police Officer’s
Use of Deadly Force is Not Unconstitutional
When He Reasonably Fears for His Safety in
Response to a Perceived Threat of Harm ....... 20
CONCLUSION ....................................................... 26

vi
TABLE OF APPENDICES
Appendix A: United States Court of Appeals for the
Fifth Circuit Judgment/Mandate, dated October 29,
2019 ...................................................................... 1a
Appendix B : United States Court of Appeals for the
Fifth Circuit Order and dissenting opinions denying
en banc review, dated October 21, 2019 .............. 3a
Appendix C: United States Court of Appeals for the
Fifth Circuit Opinion and dissenting opinion, dated
February 18, 2019 ................................................ 11a
Appendix D: United States District Court for the
Northern District of Texas Opinion granting motion
for summary judgment for Defendant Kaufman
County, Texas dated October 4, 2016 ................. 48a
Appendix E: United States District Court for the
Northern District of Texas Opinion granting motion
for summary judgment for Defendants Hinds,
Cuellar, and Huddleston, dated
August 10, 2016 ................................................... 55a

vii
TABLE OF AUTHORITIES
Page(s)
Cases
Ballard v. Burton,
444 F.3d 391 (5th Cir. 2006) ...............................20
Bustillos v. El Paso Co. Hosp. Dist., et
al.,
891 F.3d 214 (5th Cir. 2018) ...................11, 12, 13
City of Canton v. Harris,
489 U.S. 378, 109 S. Ct. 1197 (1989) ............12, 13
City of Los Angeles v. Heller,
106 S. Ct. 1571 (1986) ...................................11, 12
Gonzalez v. Ysleta Indep. Sch., Dist.,
996 F.2d 745 (5th Cir. 1993) .........................11, 13
Graham v. Conner,
490 U.S. 386 (1989) .......................................10, 14
Hagans v. Franklin Cty. Sheriff’s Ofc.,
695 F.3d (6th Cir. 2012) ......................................11
Harris v. Serpas,
745 F.3d 767.771 (5th Cir. 2014) ........................21
Kingsley v. Hendrickson,
135 S. Ct. 2466 .....................................................14

viii
Estate of Larsen v. Murr,
511 F.3d 1255 (10th Cir. 2008) ...........................23
Manis v. Lawson,
585 F.3d 839 (5th Cir. 2009) ...................20, 22, 23
Mendez v. Poitevent,
823 F.3d 326 (5th Cir. 2016) ...............................21
Monell v. New York City Dept. of Social
Services,
436 U.S. 658, 98 S. Ct. 2018, 56
L.Ed.2d 611 (1978).................................................9
Mullenix v. Luna,
136 S. Ct. 305 (2015) .........................10, 15, 19, 21
Mullins v. Cyranek,
805 F.3d 760 (6th Cir. 2015) ...............................24
Ontiveros v. City of Rosenberg,
564 F.3d 379 (5th Cir. 2009) .............10, 14, 19, 20
Owen v. City of Independence,
445 U.S. 622 (1980) .............................................13
Ramirez v. Knoulton,
542 F.3d 124 (5th Cir. 2008) ....................... passim
Reese v. Anderson,
926 F.2d 494 (5th Cir. 1991) ...............................20
Ryburn v. Huff,
565 U.S. 469 (2012) .................................10, 14, 15

ix
Salazar-Limon v. City of Houston,
826 F.3d 272 (5th Cir. 2016) .........................21, 23
Saucier v. Katz,
533 U.S. 194 (2001) .............................................14
Szabla v. City of Brooklyn Park,
486 F.3d 385 (8th Cir. 2007) (en
banc) ...............................................................11, 13
Tennessee v. Garner,
471 U.S. 1 (1985) ...........................................14, 20
Terry v. Ohio,
88 S. Ct. 1868 (1968) ...........................................15
United States v. Sharpe,
470 U.S. 675 (1985) .............................................22
Untalan v. City of Lorain,
430 F.3d 312 (6th Cir. 2005) ...............................25
White v. Pauly,
580 U.S. ............................................................9, 15
Wilson v. Meeks,
52 F.3d 1547 (10th Cir. 1995) .............................25
Winzer v. Kaufman County, et al.,
916 F.3d 464 (5th Cir. 2019) .................................1
Young v. City of Killeen,
775 F.2d 1349 (5th Cir. 1985) .............................20
Statutes
28 U.S.C. § 1254(1) .....................................................2

x
28 U.S.C. § 1291 ..........................................................2
42 U.S.C. § 1983 ............................................2, 7, 9, 12
Other Authorities
U.S. Const., amend. IV ..................................... passim

1
PETITION FOR A WRIT OF CERTIORARI
Petitioners Matthew Hinds and Kaufman County
respectfully petition this Court for a Writ of Certiorari
to review the judgment and opinion of the United
States Court of Appeals for the Fifth Circuit. See
Winzer v. Kaufman County, et al., 916 F.3d 464 (5th
Cir. 2019), attached in the Appendix (“App.”) hereto at
1a—2a, 11a—47a.
__________________
OPINIONS AND ORDERS BELOW
The Fifth Circuit’s order and dissenting opinions
denying rehearing and rehearing en banc is reported
at 940 F.3d 900 (5th Cir. 2019) and is reprinted in the
Appendix hereto at 3a—10a.
The Fifth Circuit’s opinion and dissenting opinion
affirming in part and reversing in part the district
court’s judgment is reported at 916 F.3d 464 (5th Cir.
2019) and is reprinted in the Appendix hereto at 11a—
47a.
The district court’s order granting Kaufman
County’s motion for summary judgment has not been
reported. It is reprinted in the Appendix hereto at
48a—54a.
The district court’s order granting the individual
defendants’ motion to dismiss and for summary
judgment has not been reported. It is reprinted in the
Appendix hereto at 55a—74a.

2
__________________
JURISDICTION
The Fifth Circuit had appellate jurisdiction
because the district court’s orders granting the motions
for summary judgment were “final decisions” within
the meaning of 28 U.S.C. § 1291.
A divided Fifth Circuit denied en banc review on
October 21, 2019, by a vote of 10 – 6. Petitioners
timely filed this petition for writ of certiorari on
. This Court has jurisdiction under 28 U.S.C.
§ 1254(1).
__________________
CONSITUTIONAL AND STATUTORY
PROVISIONS INVOLVED
Respondents brought the underlying actions under
42 U.S.C. § 1983, which states:
Every person who, under color of any statute,
ordinance, regulation, custom, or usage, of any
State or Territory or the District of Columbia,
subjects, or causes to be subjected, any citizen
of the United States or other person within the
jurisdiction thereof to the deprivation of any
rights, privileges, or immunities secured by
the Constitution and laws, shall be liable to
the party injured in an action at law, suit in
equity, or other proper proceeding for redress,
except that in any action brought against a

3
judicial officer for an act or omission taken in
such officer’s judicial capacity, injunctive relief
shall not be granted unless a declaratory
decree was violated or declaratory relief was
unavailable. For the purposes of this section,
any Act of Congress applicable exclusively to
the District of Columbia shall be considered to
be a statute of the District of Columbia.
Respondents allege that Petitioners violated their
rights under the Fourth Amendment to the United
States Constitution, which states:
The right of the people to be secure in their
persons, houses, papers, and effects, against
unreasonable searches and seizures, shall not
be violated, and no Warrants shall issue, but
upon probable cause, supported by Oath or
affirmation, and particularly describing the
place to be searched, and the persons or things
to be seized.
__________________
STATEMENT OF THE CASE
On the morning of April 27, 2013, several terrified
Kaufman County residents in a quiet, rural
neighborhood called 911 to report that a black man
was walking up and down their neighborhood,
brandishing a handgun, shooting at mailboxes, and
threatening neighbors. (ROA.16-11482.311-320). The
suspect was quoted as yelling “everyone’s going to get
theirs” and he wanted to “get back what’s mine.”
(ROA.316-17). Callers also reported the suspect was

4
bald and was wearing a brown shirt with jeans or blue
sweatpants. (ROA.311, 316).
Upon receiving these calls, dispatchers radioed
local law enforcement officers in the area, including
Kaufman County Sheriff’s deputies and Texas State
troopers. (ROA.279-80, 285-86, 290-91, 296-97, 30203, 321-22). Dash-cam videos from the squad cars
captured the arrival of the first two officers – Deputy
Matthew Hinds and DPS Trooper Gerardo Hinojosa.
(ROA.279-80, 285-86, 323). As they arrived, Hinds and
Hinojosa spotted the suspect standing in the middle of
the road down from their location, approximately 150
yards away. (Id.). After they stopped and exited their
vehicles, the suspect turned toward the officers and
fired a gun at them. (Id.). Hinojosa heard the
“whizzing sound” of a bullet go by. (ROA.286). Hinds
quickly reported “shots fired” over his police radio to
dispatchers and others. (ROA.280, 286, 324). The
suspect then ducked from Hinds’ view. (ROA.280, 286).
Deputies Gary Huddleston, Bill Cuellar, and Keith
Wheeler soon arrived at the scene. (ROA.279-80, 286,
291, 297, 303). Pursuant to their training, the officers
set up to approach the location where the suspect was
last seen. (Id.). Dispatch was continuing to receive all
calls and updated Officer Hinds that the suspect was
in front of a neighbor’s house. (ROA. 281). Hinds
spotted the suspect about 100-120 yards away. (Id.).
Another officer used the vehicle’s PA system to call out
for the suspect to drop his gun and come toward the
officers. (Id.). The suspect refused to comply and,
instead, disappeared from view again. (Id.).

5
The officers slowly proceeded down the road
toward the suspect’s location, again giving multiple
warnings for him to come out and drop his gun.
(ROA.281, 286, 291, 297-98, 303, 323). Dispatchers
reported to Hinds that the suspect had gone into his
house. (ROA.281).1 With other neighbors in the area,
the officers were concerned for everyone’s safety,
including their own. (Id.). As they were deciding how
to engage the suspect, 25-year old Gabriel Winzer
(“Gabriel”) suddenly appeared, from where the suspect
was last seen, riding a bicycle down the road toward
the officers. (ROA.281, 286, 291-92, 298, 304, 323). At
that moment, he was approximately 90-100 yards
away. (Id.).
While coming toward the officers, Gabriel
appeared to have a gun in his hand. (ROA.281, 286,
292, 298, 304). One of the officers stated that Gabriel
had “that gun,” clearly referring to the suspect who
had earlier fired at Hinds and Hinojosa. (ROA.298).
After yelling for him to “put the gun down,” which
Gabriel ignored, the officers fired multiple shots at
him. (ROA.281, 286, 292, 298, 304, 323). Gabriel fell
off the bicycle and disappeared again into an unknown
location. (Id.).
After several minutes, the officers moved into the
area where Gabriel left the road, and they found him
and his father, Henry Winzer, in the back yard of their
residence. (ROA.282, 286-87, 292, 298, 304, 323).
Gabriel was on the ground. The officers repeatedly
Operable firearms were later discovered in the house.
(ROA.331; Appellees’ Br. at ROA.268).
1

6
ordered Henry to move away from his son and to come
towards them with his hands up. But he refused.
(ROA.282, 286, 298-99, 304). When the officers asked
about the gun that Gabriel had, Henry claimed it was
only a toy gun and tossed a dark-colored plastic gun in
their direction.2 (ROA.282, 287, 299). Instead of
complying with commands and receiving medical help,
Garbriel resisted. Once Gabriel was finally handcuffed,
EMS personnel entered the back yard of the residence,
but he was deceased. (ROA.287, 293, 299, 305).
Gabriel’s autopsy showed that, at the time of his
death, he was wearing a brown T-shirt and blue knit
exercise pants, matching the description of the suspect
reported by 911 callers. (ROA.335).3
Defendants Hinds, Cuellar and Huddleston moved
the district court to dismiss the Respondents’ claims
against them because (1) the claims against Cuellar
and Huddleston were barred by the two-year statute of
limitations; and (2) Hinds was entitled to qualified
immunity in that his use of deadly force was not
excessive nor objectively unreasonable in violation of
clearly established law. (ROA.244-273). The district
court agreed, dismissing Respondents’ claims against
Cuellar and Huddleston and concluding that Hinds’
use of force was objectively reasonable because he “had
probable cause to believe that G. Winzer posed a
threat of serious physical harm to himself, his fellow
officers, and other individuals in the neighborhood.”
A gunshot residue analysis later confirmed the presence of
gunshot residue on Gabriel. (ROA.328).
2

The majority opinion omits this fact and suggests Gabriel
Winzer was not the original shooter. (App. 15a, 29a)
3

7
(App. 73a—74a). Respondents filed a motion for
reconsideration, which the district court denied.
(ROA.742-748).
Subsequently, Petitioner Kaufman County filed a
motion for summary judgment on the grounds that,
absent a Constitutional violation committed by Hinds,
the County had no Section 1983 liability to
Respondents. (ROA.648-655). The district court
agreed, granted the County’s motion, and entered a
Final Judgment. (ROA.761-768).
Respondents timely appealed, and a divided panel
of the Fifth Circuit affirmed the district court’s
judgment in part and reversed in part. (App. 11a—
47a). The panel consisted of Judges James L. Dennis,
James Graves, Jr. and Edith Brown Clement. The
majority (Judges Dennis and Graves) concluded that
“the errors in the district court’s analysis were myriad”
(App. 28a) and adopted a distilled set of facts in
determining whether an objectively reasonable officer
would have believed that Gabriel Winzer posed an
imminent threat of harm. (App. 31a—32a). Denying
that it was second-guessing Hinds’ decisions or
imposing a “20/20 hindsight analysis,” the majority
held that a jury must decide whether Hinds’ use of
force was unreasonable; therefore, he was not entitled
to qualified immunity under the first prong of the
analysis. (App. 32a). Nevertheless, the majority found
that Winzer’s right to be free from excessive force in
this situation was not clearly established and affirmed
his dismissal from the suit. (App. 33a). The majority,
however, reversed and remanded the district court’s
summary judgment for Kaufman County. (App. 33a—
34a).

8
Judge Clement concurred in the panel majority’s
conclusion that the law was not clearly established but
authored a compelling dissent to the rest of the
majority opinion. (App. 35a—47a). She wrote, “the
majority misapprehends qualified immunity—both its
first principles and specific legal standards—and has
endangered Officer Hinds’s (and future law
enforcement officers’) rightful claim to it.” (App. 39a)
Faulting the majority for discounting the tense
circumstances encountered by Hinds, Judge Clement
observed that the majority, in fact, imposed the sort of
20/20 hindsight analysis and the second-guessing of
decisions by officers in field, which the Fifth Circuit
(and this Court) have forbidden. (App. 42a). Judge
Clement concluded that, based on all of the knowable
and uncontroverted facts available to Hinds, and “after
using the appropriate sensitivity required to analyze
[his] decisions…the plaintiffs failed to meet their
burden to show his actions were objectively
unreasonable.” (App. 45a).
Petitioners then sought rehearing en banc in the
Fifth Circuit which was denied by a 10 – 6 vote. (App.
3a-4a). Judge Jerry E. Smith dissented from the denial
of rehearing and also joined in a separate dissenting
opinion authored by Judge James C. Ho and joined by
Judges Clement and Kurt D. Engelhardt. (App. 5a—
10a). Judge Smith pointedly quoted:
Abandon hope, all ye who enter Texas,
Louisiana, or Mississippi as peace officers with
only a few seconds to react to dangerous
confrontations with threatening and wellarmed potential killers….[T]here is little

9
chance that, any time soon, the Fifth Circuit
will confer the qualified-immunity protection
that heretofore-settled Supreme Court and
Fifth Circuit caselaw requires. (App. 5a).
Judge Ho opened his dissent from rehearing en
banc with the observation that, “If we want to stop
mass shootings, we should stop punishing police
officers who put their lives on the line to prevent
them.” (App. 5a). He later remarked about the
dangerous and ill-advised message the majority’s
opinion sends to law enforcement officers: “See
something, do nothing.” (App. 10a).
REASONS FOR GRANTING THE PETITION
This appeal involves multiple questions of
exceptional importance because the Fifth Circuit’s
decision conflicts with decisions of this Court and other
appellate courts across the country.
First, the majority opinion potentially subjects
Kaufman County to Section 1983 liability under
Monell v. New York City Dept. of Social Services
despite no officer being liable for violating clearly
established law.
Second, the majority opinion conflicts with
Supreme Court decisions requiring that the
reasonableness of an officer’s use of force to be judged
from the perspective of an objective officer on the
scene, taking into account the facts and information
“knowable” to the officer at the time. See White v.
Pauly, 580 U.S.
, 137 S. Ct. 548, 550 (2017).

10
The opinion also conflicts with decisions of this
Court prohibiting the assessment of an officer’s use of
force with the benefit of 20/20 hindsight from the
“peace of a judge’s chambers,” and without due regard
for the fact that officers are often forced to make splitsecond judgments about the amount of force to use in
circumstances that are tense, chaotic, and rapidly
evolving. See Graham v. Conner, 490 U.S. 386 (1989);
Ryburn v. Huff, 565 U.S. 469 (2012).
The opinion also conflicts with Fifth Circuit
decisions holding that the use of deadly force is
presumptively reasonable and officers may take action
to defend themselves or others when an objective
officer has reason to believe that a suspect poses a
threat of serious harm. See e.g, Ontiveros v. City of
Rosenberg, 564 F.3d 379 (5th Cir. 2009); Ramirez v.
Knoulton, 542 F.3d 124 (5th Cir. 2008).
Third, the majority implies that an officer must
wait until the moment a suspect uses a deadly weapon
to act to stop the suspect. This conflicts with Mullenix
v. Luna, 136 S. Ct. 305, 311 (2015).
I.

THE PANEL MAJORITY IMPROPERLY
REVERSED KAUFMAN COUNTY’S
SUMMARY JUDGMENT IN THE
ABSENCE OF A VIOLATION OF
CLEARLY ESTABLISHED LAW.

The panel majority erred in reversing the district
court’s summary judgment for Kaufman County as
premature. (See App. 33a—34a). Here, the panel

11
majority effectively concluded there may have been a
Constitutional violation but then conceded it was not a
clearly established Constitutional right.
The majority’s reversal of the County’s summary
judgment violated the law in the Fifth Circuit and
other Circuits: If the law was not clearly established,
how could a county deliberately violate the law? See
Bustillos v. El Paso Co. Hosp. Dist., et al., 891 F.3d
214, 223 (5th Cir. 2018); Hagans v. Franklin Cty.
Sheriff’s Ofc., 695 F.3d, 505, 511 (6th Cir. 2012);
Szabla v. City of Brooklyn Park, 486 F.3d 385, 393 (8th
Cir. 2007) (en banc); see also Gonzalez v. Ysleta Indep.
Sch., Dist., 996 F.2d 745, 759 (5th Cir. 1993) (dicta).
The majority reasoned that, because there were
genuine fact issues about whether Hinds committed a
constitutional violation, the County was not yet
entitled to summary judgment. Id. This conclusion
conflicts with this Court’s decision in City of Los
Angeles v. Heller, 106 S. Ct. 1571 (1986), the Fifth
Circuit’s own decision in Bustillos v. El Paso Cty. Hosp.
Dist., 891 F.3d 214 (5th Cir. 2018), and the decisions of
other Circuits.
In Heller, this Court plainly held:
[N]either Monell v. New York City Dept. of
Social Services, 436 U.S. 658, 98 S. Ct. 2018,
56 L.Ed.2d 611 (1978), nor any other of our
cases authorizes the award of damages against
a municipal corporation based on the actions of
one of its officers when in fact the jury has

12
concluded that the
constitutional harm.

officer

inflicted

no

Heller, 106 S. Ct. at 1573 (emphasis in original).
One corollary to this Court’s holding in Heller,
which the Fifth Circuit and other Circuits have
recognized, is that governmental liability cannot
attach under Section 1983 for claims premised on
deliberate indifference to a constitutional right when
that right has not yet been clearly established. See
Bustillos, 891 F.3d at 222. This is the case even when
a constitutional violation might be proven. Indeed, in
Bustillos, the Fifth Circuit affirmed the dismissal of
the plaintiffs’ deliberate indifference (i.e. failure to
train) claim against El Paso County, regardless of
whether the complaint sufficiently alleged a
constitutional violation, because a “policymaker
cannot exhibit fault rising to the level of deliberate
indifference to a constitutional right when that right
has not yet been clearly established.” Id. (quoting
Hagans v. Franklin County Sheriff’s Office, 695 F.3d
505, 511 (6th Cir. 2012)) (quoting Szabala v. City of
Brooklyn Park, 486 F.3d 385, 393 (8th Cir. 2007) (en
banc)).
Respondents’ Section 1983 claim against Kaufman
County stems from its alleged failure to train its
officers on the use of deadly force (see ROA.140-141),
which this Court has held requires a showing of
deliberate indifference by the government entity. See
City of Canton v. Harris, 489 U.S. 378, 389, 109 S. Ct.
1197, 1205 (1989).

13
Furthermore, this Court’s decision in Owen v. City
of Independence, 445 U.S. 622 (1980) does not bar a
judgment in favor of the County. There, the Court
held that the good-faith immunity enjoyed by public
officials does not extend to municipalities when the
municipality itself commits a constitutional violation
through its policies. Id. at 657. Unlike Owen, this
case, along with Bustillos, Szabala and others,
involves an explicit claim for failing to adequately
train public officials, which courts have recognized
requires a more rigorous analysis of culpability and
causation – i.e., deliberate indifference – to avoid
imposing respondeat superior liability. See e.g.,
Szabala, 486 F.3d at 394. In fact, the Fifth Circuit has
previously observed that the deliberate indifference
requirement mandated by City of Canton can be
applied consistently with the Court’s holding in Owen.
Gonzalez, 996 F.2d at 759-760. It follows from these
cases that Kaufman County cannot be deliberately
indifferent to a Constitutional right that was not
clearly established at the time of the official’s conduct.
Hence, the panel majority wrongfully reversed the
County’s summary judgment.
II.

THE MAJORITY OPINION MISAPPLIES
THE STANDARDS GOVERNING
QUALIFIED IMMUNITY ARTICULATED
BY THIS COURT IN DETERMINING
WHETHER OFFICER HINDS
REASONABLY PERCEIVED A THREAT
OF IMMINENT HARM.

Police officers who routinely confront dangerous
suspects and tense encounters in the field must decide

14
whether and how to protect themselves and the
general public within the confines of the Fourth
Amendment. See Tennessee v. Garner, 471 U.S. 1, 7
(1985) (an officer’s use of deadly force is a seizure
under the Fourth Amendment and therefore must be
reasonable). When deciding whether an officer’s use of
force is unreasonable and violates the Fourth
Amendment, this Court has long required courts to
apply an objective test in carefully balancing the
“nature and quality of the intrusion on the individual’s
Fourth Amendment interest against the countervailing
governmental interests at stake.” See Graham v.
Connor, 490 U.S. 386, 395-96 (1989) (internal
quotation marks omitted). This is not a rigid or
mechanical test; rather, whether an officer’s use of
deadly force is reasonable is informed by a number of
non-exclusive factors including (1) the severity of the
suspected crime; (2) whether the suspect imposes an
immediate threat to the safety of the officer or others;
(3) the suspect’s level of resistance; (4) the relationship
between the need for force and the amount of force
used; and (5) the officer’s effort to temper or limit the
amount of force used. See id. at 396; Kingsley v.
Hendrickson, 135 S. Ct. 2466, 2473.
This Court and the Fifth Circuit have repeatedly
emphasized that determining the reasonableness of an
officer’s decision to use deadly force must be viewed
from the circumstances he or she confronted, without
the benefit of 20/20 hindsight from the peace and
comfort of courthouse chambers. See Graham, 490
U.S. at 396; Ryburn, 565 U.S. at 476-77 (2012);
Saucier v. Katz, 533 U.S. 194, 209 (2001); Ramirez, 542
F.3d at 129; Ontiveros, 564 F.3d at 382. Indeed, this

15
Court has warned judges against “second-guessing a
police officer’s assessment, made on the scene, of the
danger presented by a particular situation.” Ryburn,
565 U.S. at 477. On occasion, the Fifth Circuit has
ignored this Court’s teaching. See e.g., Mullenix v.
Luna, 136 S. Ct. 305 (2015) (summarily reversing
denial of qualified immunity).
Thus, a court’s evaluation of an officer’s use of
force is limited to facts and information “knowable” to
the officer at the time. White, 137 S. Ct at 550. This
framework permits courts to use “reasonable
inferences which [the officer] is entitled to draw from
the facts” when assessing whether he reasonably
perceives a threat of harm. See Terry v. Ohio, 88 S. Ct.
1868, 1883 (1968).
Contrary to this well-established precedent and
guidance, the panel majority took the opposite
approach in assessing Officer Hinds’ use of force and
thereby committed reversible error. Not only did the
majority ignore what was indisputably a chaotic and
“especially tense situation” (see ROA.641), it actually
adopted the Respondents’ characterization of the
events, including Gabriel Winzer’s alleged innocent
intent, and failed to consider critical facts and
reasonable inferences that an objective officer in
Hinds’ position could have drawn based on the totality
of the circumstances.
First, the majority’s decision is based on the flawed
conclusion that Gabriel Winzer was at home when the
officers first arrived and was “not the suspect who had
fired at Hinds and Hinojosa.” (App. 15a). As Judge

16
Clement notes in her dissent, the sole source for this
“highly disputed” fact is Henry Winzer’s contested
affidavit. (App. 35a—36a, n.1). Indeed, Henry’s
affidavit admits that he was at home, and not with
Gabriel, when Gabriel was “walking around the
neighborhood, [supposedly] playing with a bright
orange toy gun” before the officers arrived. (ROA.497).
Henry claims he instructed Gabriel to come home only
after Henry noticed law enforcement officers following
him (See ROA.498).4
Second, and equally important, the pivotal
question is whether Hinds could have reasonably
believed that Gabriel was the same person who took a
shot at him just minutes earlier. The majority appears
to say no, based solely on the fact that Gabriel was on
a bicycle and wearing a blue jacket, rather than a
brown shirt. (App. 29a, 32a). The record, however,
confirms that Gabriel was wearing a brown T-shirt
while riding his bicycle. (ROA.335) (“When first
viewed, the body is clad in a…cut away bloodstained
brown T-shirt...”) (emphasis added). Neighbors calling
911 also reported the suspect as a bald man wearing
blue sweatpants or jeans. (ROA.311, 316). This
description matched Gabriel as well. (ROA.335)(“When
first viewed, the body is clad in…bloodstained blue
knit exercise pants…The scalp hair is black and
4

The panel majority found that the district court erred in
disregarding certain parts of Henry Winzer’s affidavit under the
“sham affidavit” doctrine. (App. 22a—26a). Petitioners contend
the majority is incorrect; however, as Judge Clement observed in
her dissent, Officer Hinds’s behavior was reasonable in any event,
even taking the affidavit into consideration. (App. 38a—39a).

17
measures less than 1/8 inch.”) (emphasis added).
Hence, the majority’s opinion resting on the notion
that Gabriel Winzer was not the suspect who initially
shot at Hinds ignores this Court’s mandate to view the
facts and circumstances from Hinds’ perspective,
including reasonable inferences he could have drawn,
to determine whether his behavior was reasonable.
Similarly, when Gabriel appeared on his bicycle,
he emerged from the “last known location of the
suspect.” (App. 32a). Yet, the majority erroneously
credits Respondents’ assertion that Gabriel was simply
riding his bike toward the officers on an “innocent
mission to show the officers his toy pistol.”5 (App. 15a).
The majority even subjectively describes Gabriel’s
approaching on the bicycle as “dawd[ling]” and taking
a “child-like ‘figure 3’” (App. 30a—31a & n.10), which
Judge Clement aptly noted were not obvious and could
only be discerned from a repeated, nuanced review of
the video evidence “in the quiet of an office.” (App.
45a). “Such fine distinctions into [the majority’s]
analysis of what a reasonable officer should do when
faced with a split-second, life-or-death decision in real
time is particularly misguided.” (Id.) (citing Graham,
490 U.S. at 396-97). In fact, it contravenes this Court’s
instructions about focusing only on what was
“knowable” to Hinds. Whether Winzer’s intent was
truly “innocent” is something Hinds could not have
known. Likewise, right before Gabriel emerged on his
bicycle from the suspect’s last known location, Hinds
was advised that the suspect had gone into his house.
(ROA.281). But, for what reason? To change clothes?
5

Winzer was 25 at the time (ROA 335).

18
To dispose of his gun? To get another one? To re-load
and fire again? Instead of following this Court’s
precedent and respecting the real-time decisionmaking of these officers in the field, the majority
imposes additional burdens never before placed on
officers. Before resorting to deadly force, officers must
question or confirm the identity of suspects they
encounter, determine their true intentions and
whether or not they are armed. This Court’s decisions
do not impose such requirements on police officers.
When the facts and evidence are viewed
consistently with this Court’s jurisprudence, Officer
Hinds’ decision to use deadly force was eminently
reasonable. Disregarding this Court’s guidance, the
majority goes to great lengths to downplay the threat
of harm confronted by Hinds and the other officers in
the chaos that was rapidly unfolding that day. From
the “peace of a judge’s chambers,” the majority
improperly second guesses Hinds’ decision on the
appropriate level of force he should use, contrary to a
long line of precedent from this Court and the Fifth
Circuit. By engaging in this forbidden secondguessing, as Judge Clement correctly observed, the
majority has undermined the qualified immunity
framework established by this Court and the Fifth
Circuit by forcing officers to disregard their own
instincts and the observations of their fellow officers in
determining the nature of the risk posed by suspects
and the appropriate level of force to use. In real-time,
life-threatening scenarios that law enforcement
officers frequently confront, the majority now requires
them to unnecessarily question whether and how they
can protect themselves and others. This is not the first
time the Court has been called upon to correct the

19
mistaken analysis of a Fifth Circuit panel. See e.g.,
Mullenix v. Luna, 136 S. Ct. 305 (2015).
The majority also faults Hinds and the other
officers for the quickness of their reaction in deciding
to use deadly force. (App. 30a). Citing Trammel v.
Fruge, a case that does not even involve deadly force,
the majority suggests officers must assess whether a
suspect is aware of their commands to drop his weapon
and why he is disobeying. Despite clear, indisputable
video evidence that (1) at least once the officers yelled
for the suspect to drop his weapon and surrender, (2)
when Gabriel emerged on his bicycle, one officer
referred to him having “that gun,” and (3) another
officer yelled for him to “put that down,” the majority
implies that Hinds should have waited and given
Gabriel more time to comply with their commands.
This Court has never required an officer to
unreasonably risk his own life by waiting to see
whether a suspect will follow through on a reasonably
perceived threat. Such hindsight and speculation
exposes officers to potentially deadly consequences. See
Ontiveros, 564 F.3d at 384 n.2 (referring to the
exigencies that officers face and how requiring them to
delay reacting results in “a tie, you die” scenario).

20
III.

THE PANEL MAJORITY’S ANALYSIS OF
HINDS’ USE OF FORCE CONTRAVENES
THE FIFTH CIRCUIT’S AND OTHER
CIRCUITS’ DECISIONS HOLDING THAT
A POLICE OFFICER’S USE OF DEADLY
FORCE IS NOT UNCONSTITUTIONAL
WHEN HE REASONABLY FEARS FOR
HIS SAFETY IN RESPONSE TO A
PERCEIVED THREAT OF HARM.

This Court should also review this case because,
under controlling Fifth Circuit law and the law of
other Circuits, Officer Hinds’ use of deadly force was
reasonable under the circumstances.6 Indeed, the
6 See e.g., Reese v. Anderson, 926 F.2d 494, 500-01 (5th Cir. 1991)
(holding that Garner did not prohibit conduct where facts
indicated that an officer reasonably perceived a threat from a noncompliant suspect after a car chase); Young v. City of Killeen, 775
F.2d 1349, 1352-53 (5th Cir. 1985) (holding that there was no
constitutional deprivation here “all witnesses agreed” that the
officer had reasonably perceived a threat at the time of the
shooting); Ontiveros v. City of Rosenberg, 564 F.3d 379, 385 (5th
Cir. 2009) (affirming summary judgment on the basis of qualified
immunity where facts indicated that a SWAT team officer
reasonably perceived a threat from a non-compliant suspect
barricaded behind a door); Manis v. Lawson, 585 F.3d 839, 845-46
(5th Cir. 2009) (holding that an officer was entitled to qualified
immunity where facts established that he reasonably perceived a
threat from a non-compliant suspect refusing to show his hands
and appearing to retrieve a gun); Ballard v. Burton, 444 F.3d 391,
402-03 (5th Cir. 2006) (holding that an officer was entitled to
summary judgment on an excessive force claim where facts
indicated the officer reasonably perceived a threat from a noncompliant suspect); Ramirez v. Knoulton, 542 F.3d 124, 129-31
(5th Cir. 2008) (holding that an officer was entitled to qualified

21
panel decision mistakenly failed to recognize the
importance of cases clearly requiring burden shifting
to summary judgment non-movants when qualified
immunity is alleged, a burden which “is a heavy [one].”
See Mendez v. Poitevent, 823 F.3d 326, 331 (5th Cir.
2016) (quoting Vincent v. City of Sulphur, 805 F.3d
543, 547 (5th Cir. 2015); Harris v. Serpas, 745 F.3d
767.771 (5th Cir. 2014) (“Once the defendant raises the
qualified immunity defense, the burden shifts to the
plaintiff to rebut this defense by establishing that the
official’s allegedly wrongful conduct violated clearly
established law.”) (internal quotations and citation
omitted).
In Ramirez v. Knoulton, 542 F.3d 124 (5th Cir.
2008), the Fifth Circuit reversed the district court’s
denial of qualified immunity for a police officer who
used deadly force when he encountered a suspect
whose conduct was deemed “defiant and threatening.”
Id. at 129-30. After being stopped on a roadside by the
officers, the suspect exited his car holding a handgun
at his side. Id. at 127. The suspect never discharged
his gun, pointed it at the officers, or even raised it. Id.
at 129. In addition, there were no vulnerable
bystanders nearby, and the officers had summoned a
crisis negotiator to the scene. Id. Nevertheless, when
the suspect brought his hands together at this waist,
immunity where facts indicated that a suspect was “defiant and
threatening”). See also Salazar-Limon v. City of Houston, 826
F.3d 272, 279 (5th Cir. 2016) (holding that an officer was entitled
to qualified immunity where the officer reasonably perceived a
threat from a non-compliant suspect who physically struggled
with the officer before suddenly reaching towards his waistband);
see also Mullenix v. Luna, 136 S. Ct. 305, 308 (2015).

22
one officer fired a shot hitting the suspect. Id. at 127.
The district court found there was at least a fact issue
of whether the officer’s actions were excessive. The
Fifth Circuit, however, disagreed noting that the
district court “largely employed 20/20 hindsight in
reaching this conclusion.” Id. at 129. The Court
faulted the district court for failing to consider the
totality of the circumstances, including situations that
are “tense, uncertain, and rapidly evolving,” in
deciding whether the suspect posed a threat of serious
physical harm. Id. at 129-30. Critically, the Fifth
Circuit quoted this Court’s admonition in United
States v. Sharpe, 470 U.S. 675, 686-87 (1985):
A creative judge engaged in post hoc
evaluation of police conduct can almost
always imagine some alternative means by
which the objectives of the police might have
been accomplished.
Id. (quoting Sharpe, 470 U.S. at 686-87). Here, the
panel majority’s decision utilizes this same sort of
20/20 hindsight, which this Court and the Fifth
Circuit prohibit.
In Manis v. Lawson, 585 F.3d 839 (5th Cir. 2009),
the Fifth Circuit again reversed the district court’s
denial of qualified immunity for an officer who used
deadly force against an unarmed suspect who was noncompliant and appeared to be reaching for something
under his seat at the time the officer shot him. Id. at
845. The Fifth Circuit observed that the suspect’s
actual intent – if that could even be discerned – was
not the test; the question was whether the officer was

23
objectively reasonable in believing he posed a threat of
serious harm. Id.
Similarly, in Salazar-Limon v. City of Houston,
826 F.3d 272 (5th Cir. 2016), the Fifth Circuit
concluded there was no Constitutional violation by an
officer who reasonably perceived a threat from a noncompliant suspect who briefly struggled with the
officer, walked away from him, and reached towards
his waistband at the time the officer shot him. Id. at
275, 279.
The Court noted that the suspect’s
positioning toward the officer was immaterial, stating
“we have never required officers to wait until a
defendant turns toward them, with weapon in hand,
before applying deadly force to ensure their safety.” Id.
at 279 n.7 (citing cases).
The above precedent from the Fifth Circuit is
consistent with the clearly established law in other
Circuits as well. For example, in the Tenth Circuit, an
officer’s use of deadly force is “justified under the
Fourth Amendment if a reasonable officer….would
have probable cause to believe that there was a threat
of serious physical harm to themselves or to others,”
even before a suspect fires a weapon or attempts to use
a weapon. Estate of Larsen v. Murr, 511 F.3d 1255,
1260 (10th Cir. 2008) (emphasis omitted) (officer’s
shooting of a man with a raised knife was reasonable
even when suspect made no threatening movements
toward officer because a “reasonable officer need not
await the ‘glint of steel’ before taking self-protective
action; by then, it is ‘often too late to take safety
precautions’”) (quoting People v. Morales, 198 A.D.2d
129, 130 (N.Y. App. Div. 1993)).

24
In Mullins v. Cyranek, 805 F.3d 760 (6th Cir.
2015), the Sixth Circuit affirmed qualified immunity
for an officer who encountered a suspect with a gun
and shot and killed the suspect, even though at the
time, the suspect had tossed the gun over the officer’s
shoulder in response to the officer’s command to drop
the weapon. Id. at 767. The Sixth Circuit held that the
officer’s actions were not unreasonable, noting that the
suspect initially had his finger on the trigger of the
gun: “While [the officer]’s decision to shoot [the
suspect] after he threw his weapon away may appear
unreasonable in the ‘sanitized world of our
imagination,’ [the officer] was faced with a rapidly
escalating situation, and his decision to use deadly
force in the face of a severe threat to himself and the
public was reasonable.” Id. The Court went on to say,
“[w]hile hindsight reveals that [the suspect] was no
longer a threat when he was shot,” officers should not
be denied qualified immunity “in situations where they
are faced with a threat of severe injury or death and
must make split-second decisions, albeit ultimately
mistaken decisions, about the amount of force
necessary to subdue such a threat.” Id. at 768 (citing
Reese v. Anderson, 926 F.2d 494, 501 (5th Cir. 1991)
(“Also irrelevant is the fact that [the decedent] was
actually unarmed…The sad truth is that [the
decedent’s] actions alone could cause a reasonable
officer to fear imminent and serious physical harm.”)
(other citation omitted).
The error in the panel majority’s decision is
highlighted by all of these cases; the opinion requires
police officers to wait before using deadly force to

25
confirm a suspect’s identity, confirm whether or not he
is carrying a weapon, and/or discern what his or her
true intentions might be. With the benefit of 20/20
hindsight and a nuanced review of the dash-cam video
from the peace of courthouse chambers, the panel
majority has imposed requirements on police officers
that heretofore have not been imposed by this Court,
the Fifth Circuit, or other Circuits. See e.g., Wilson v.
Meeks, 52 F.3d 1547, 1553-54 (10th Cir. 1995)
(“Qualified immunity does not require that the police
officer know what is in the heart or mind or his
assailant. It requires that he react reasonably to a
threat” and “the inquiry here is not into [decedent’s]
state of mind or intentions, but whether, from an
objective viewpoint and taking all factors into
consideration, [the officer] reasonably feared for his
life.”); Untalan v. City of Lorain, 430 F.3d 312, 315
(6th Cir. 2005) (“Within a few seconds of reasonably
perceiving a sufficient danger, officers may use deadly
force even if in hindsight the facts show that the
persons threatened could have escaped unharmed.”).
The majority’s conclusion that Officer Hinds could not
have reasonably relied on his own instincts and his
fellow officers’ observations violates these precedents.
In the words of Judge Clement:
[The panel majority] undermines officers’
ability to trust their judgment during those
split seconds when they must decide whether
to use lethal force. Qualified immunity is
designed to respect that judgment, requiring
us to second-guess only when it clearly violates
the law. The standard acknowledges that we
judges—mercifully—never face that split

26
second. Indeed, we never have to decide
anything without deliberation—let alone
whether we must end one person’s live to
preserve our own or the lives of those around
us.
The qualified immunity standard stops this
privilege from blinding our judgment,
preventing us from pretending we can place
ourselves in the officers’ position based on a
cold appellate record. It prevents us from
hubristically declaring what an officer should
have done—as if we can expect calm
calculation in the midst of chaos.
The majority opinion, written from the comfort
of courthouse chambers, ignores that
deference. Instead, it warns officers that they
cannot trust what they see; they cannot trust
what their fellow officers observe; they cannot
trust themselves when posed with a credible
threat. It instructs them, in that pivotal split
second, to wait. But when a split second is all
you have, waiting itself is a decision—one that
may bring disastrous consequences. (App.
46a—47a).
In summary, the majority’s conclusion that Hinds
may have violated the Constitution by unreasonably
resorting to deadly force is contrary to controlling
authority from the Supreme Court, the Fifth Circuit,
and other Circuit Courts thus warranting review by
this Court.

27
CONCLUSION
For the reasons explained above, Petitioners
respectfully submit that this Court should grant this
petition for writ of certiorari.
Respectfully submitted,
S. Cass Weiland
Counsel of Record
Robert A. Hawkins
SQUIRE PATTON BOGGS (US) LLP
2000 McKinney Avenue, Ste.1700
Dallas, Texas 75201
(214) 758-1500
(214) 758-1550 (fax)
cass.weiland@squirepb.com
Counsel for Petitioners

APPENDICES

1a
APPENDIX A
IN THE UNITED STATES COURT OF APPEALS
FOR THE FIFTH CIRCUIT
No. 16-11482
[Filed October 29, 2019]
[Filed February 18, 2019]
D.C. Docket No. 3:15-CV-1284
D.C. Docket No. 3:15-CV-1295
EUNICE J. WINZER, Individually and on behalf
of the statutory beneficiaries of Gabriel A. Winzer;
SOHELIA WINZER; HENRY WINZER,
Plaintiffs – Appellants
v.
KAUFMAN COUNTY; BILL CUELLAR; GARRY
HUDDLESTON;
MATTHEW HINDS,Defendants - Appellees
HENRY ANDREE WIZNER, also known as Henry
A. Wizner,
Plaintiff – Appellant
v.
MATTHEW HINDS, Individually and in his capacity
as member of Kaufman County Sheriff Department;
UNKNOWN STATE TROOPERS, Individually and in
their capacity as member of Texas Department of
Public
Safety;
UNKNOWN
PARAMEDICS,

2a
Individually and in their capacity as emergency
responders of the East Texas EMS; SERGEANT
FORREST FRIESEN,
Defendants – Appellees
Appeals from the United States District Court for
the Northern District of Texas
Before DENNIS, CLEMENT, and GRAVES, Circuit
Judges.
JUDGMENT
This cause was considered on the record on
appeal and was argued by counsel.
It is ordered and adjudged that the judgment of the
District Court is affirmed in part and reversed in part,
and the cause is remanded to the District Court for
further proceedings in accordance with the opinion of
this Court.
EDITH BROWN
dissenting in part.

CLEMENT,

Circuit

Judge,

Certified as a true copy and issued
As the mandate on October 29,
2019
Attest: /s/ Lyle W. Cayce
Clerk, U.S. Court of Appeals, Fifth
Circuit

3a
APPENDIX B
IN THE UNITED STATES COURT OF APPEALS
FOR THE FIFTH CIRCUIT
No. 16-11482
[Filed October 21, 2019]
EUNICE J. WINZER, Individually and on behalf
of the statutory beneficiaries of Gabriel A. Winzer;
SOHELIA WINZER; HENRY WINZER,
Plaintiffs – Appellants
v.
KAUFMAN COUNTY; BILL CUELLAR; GARRY
HUDDLESTON;
MATTHEW HINDS, Defendants - Appellees
HENRY ANDREE WINZER, also known as Henry A.
Winzer,
Plaintiff - Appellant
v.
MATTHEW HINDS, Individually and in his capacity
as member of Kaufman County Sheriff Department;
UNKNOWN STATE TROOPERS, Individually and in
their capacity as member of Texas Department of
Public
Safety;
UNKNOWN
PARAMEDICS,
Individually and in their capacity as emergency
responders of the East Texas EMS; SERGEANT
FORREST FRIESEN,
Defendants – Appellees

4a
Appeals from the United States District Court for
the Northern District of Texas
ON PETITION FOR REHEARING EN BANC
Before DENNIS, CLEMENT, and GRAVES, Circuit
Judges.
PER CURIAM:
Treating the Petition for Rehearing En Banc as a
Petition for Panel Rehearing, the Petition for Panel
Rehearing is DENIED. The court having been polled
at the request of one of the members of the court and
a majority of the judges who are in regular active
service and not disqualified not having voted in favor
(FED. R. APP. P. and 5TH CIR. R. 35), the Petition
for Rehearing En Banc is DENIED.
In the poll, 6 judges vote in favor of rehearing en
banc, and 10 vote against. Voting in favor are Judges
Smith, Elrod, Southwick, Ho, Engelhardt, and
Oldham. Voting against are Chief Judge Owen,
Jones, Stewart, Dennis, Haynes, Graves, Higginson,
Costa, Willett, and Duncan.
ENTERED FOR THE COURT:
/s/ James E. Graves, Jr.
James E. Graves, Jr.
United States Circuit Judge

5a
JERRY E. SMITH, Circuit Judge, dissenting from
the denial of rehearing
en banc:

“E pur si muove.” Galileo, 1633.
“Abandon hope, all ye who enter Texas,
Louisiana, or Mississippi as peace officers with only
a few seconds to react to dangerous confrontations
with threatening and well-armed potential killers . .
. . [T]here is little chance that, any time soon, the
Fifth Circuit will confer the qualified-immunity
protection that heretofore-settled Supreme Court
and Fifth Circuit caselaw requires.” Cole v. Carson,
935 F.3d 444, 469 (5th Cir. 2019) (en banc) (Smith,
J., dissenting).
I respectfully dissent (again).
JAMES C. HO, Circuit Judge, joined by JERRY E.
SMITH, EDITH BROWN
CLEMENT, and KURT D. ENGELHARDT, Circuit
Judges, dissenting from denial of rehearing en banc:
If we want to stop mass shootings, we should
stop punishing police officers who put their lives on
the line to prevent them.
The Fourth Amendment prohibits “unreasonable
searches and seizures”—not reasonable efforts to
protect citizens from active shooters. The panel
opinion turns this principle on its head. As Judge
Clement explained in her eloquent dissent, the
majority opinion ‘undermines officers’ ability to trust
their judgment during those split seconds when they

6a
must decide whether to use lethal force.” Winzer v.
Kaufman County, 916 F.3d 464, 482 (5th Cir. 2019)
(Clement, J., dissenting in part). “It instructs them,
in that pivotal split second, to wait. But when a split
second is all you have, waiting itself is a decision—
one that may bring disastrous consequences.” Id. See
also Cole v. Carson, 935 F.3d 444, 470 n.3 (5th Cir.
2019) (en banc) (Smith, J., dissenting) (same).
Acknowledging that a vote against rehearing en
banc need not signal agreement with the panel
majority, I respectfully dissent from the denial of
rehearing en banc.
The district court set forth the disturbing events
presented in this case. “The undisputed facts show
that, on April 27, 2013, two Kaufman County Sheriff’s
Office deputies, Gerardo Hinojosa and Defendant
Matthew Hinds, responded to several 9-1-1 reports of
an armed man who was firing a gun and destroying
mailboxes in the vicinity of County Road 316 in
Terrell, Texas. One caller reported that the suspect
had yelled, ‘Everyone’s going to get theirs,” and he
wanted to ‘get back what’s mine.’ The police
dispatcher relayed these reports to responding
officers.” Winzer v. Kaufman County, 2016
WL11472367, at *1 (N.D. Tex. Aug. 10, 2016), rev’d
in part, 916 F.3d 464 (5th Cir. 2019).
The record contains transcripts from several
understandably panicked 9-1-1 callers.
According to one 9-1-1 caller: “He’s over there
kicking people’s mailboxes, he has a gun. It’s me and
my mom and my baby. I don’t know who he is, please

7a
hurry. . . . He’s out in the street. He’s kicking the next
door neighbor’s uh, mailbox but he was pointing the
gun to our house. I don’t know who he is . . . Please
hurry. . . . Oh he’s outside shooting, oh my God.”
Another 9-1-1 caller stated: “Please get the cops
here. Oh my God. Oh my God. . . . [W]e see him
kicking the mailbox and we open the door and he
pointed the gun toward our house. . . . I don’t know if
he’s out there, I have no idea, I’m not getting up.”
Later in that same call, a background voice can be
heard, warning that “he’s coming back down the
street.” The caller responds: “Don’t open that door,
Robin. He’s coming back down the street.”
Yet another 9-1-1 caller reported: “I had my kids
outside earlier just a little bit ago and he pointed that
pistol in the yard and he said “I’m just trying to get
back what’s mine.”’ The 9-1-1 operator confirmed that
the shooter was in fact pointing at the caller’s house.
The caller further stated: “And he was just out there
hollering at my husband, he was standing on the front
porch and he saying he’s going to take back what’s
his.”
Another 9-1-1 caller stated: “I’m calling to report
some gunshots. There’s a man walking up and down
the street screaming and firing a gun.”
The district court explained what the officers
found when they arrived at the scene. “Hinojosa and
Hinds arrived in marked patrol vehicles and located a
suspect near the intersection of County Road 316 and
County Road 316A. The suspect was a black male
wearing a brown shirt. The deputies positioned their

8a
vehicles approximately 100 to 150 yards away. In
their voluntary statements, the deputies wrote that
the man fired one round in their direction. Hinojosa
and Hinds saw white smoke rise from the gun, and
Hinojosa heard a whizz go by. Hinds reported over
the radio, “shots fired.” The deputies did not return
fire. The suspect then walked toward County Road
316A, out of the officers’ view.” Id. The panel opinion
acknowledged that neither officer returned fire at
this time, for fear of hurting nearby civilians. 916
F.3d at 468.
The officers continued down County Road 316A
and instructed people to clear the area and return to
their homes. 2016 WL 11472367, at *1. When they
found the armed gunman again, they identified
themselves using their car’s PA system and ordered
him to drop his weapon. Instead, he “ducked into the
tree line and out of sight.” Id. The officers established
a “defensive position,” guns drawn and using police
vehicles for cover. 916 F.3d at 468.
A few minutes later, Gabriel Winzer suddenly
emerged from behind a house and biked towards the
officers from approximately 100 yards away. One
officer yelled out that Winzer had a gun. Another
ordered Winzer to put the gun down. Six seconds
later, one of the officers fired at Winzer. Shortly
after, the other officers also fired. Winzer turned his
bicycle away from the officers and disappeared from
view.
Minutes later, the officers located Winzer in the
backyard of a house (later determined to be the
home of Winzer’s father, Henry). The officers
discovered that Winzer had suffered four gunshot

9a
wounds to his chest, shoulder, and upper back, and
his father was nearby trying to comfort and revive
him. The officers attempted to place handcuffs on
Winzer’s wrists, but he resisted. So the officers tased
him. Once they succeeded in handcuffing him, the
officers permitted the paramedics to enter the
backyard. The paramedics pronounced Winzer dead
at the scene. Id. at 468-69; 2016 WL 11472367, at *12.
The panel majority suggests that Winzer might
not have been the suspect. 916 F.3d at 468 & n.1.
But as the district court noted, a forensic report later
detected the presence of gunshot residue on Winzer’s
body. 2016 WL 11472367, at *2. And the officers
found multiple weapons in the home—four lightly
modified Bushmaster rifles, a Ruger Super
Blackhawk revolver, a Taurus Model 669 revolver, a
Remington Model 870 Magnum shotgun, and a
Bryco Model 38 pistol—as well as multiple boxes of
ammunition and several expended cartridges.1
* * *
It is unknown how many lives were saved by these
deputies on April 27, 2013. What is known, however, is
that Kaufman County will now stand trial for their
Courts analyze the actions of law enforcement officers for
qualified immunity purposes based on the facts and reasonable
beliefs they possess at the time they act. Other factors not known to
them at that moment—whether facts existing at the time of their
action or subsequently discovered, for better or worse—cannot later
justify their actions, nor strip them of qualified immunity they
otherwise enjoy. See, e.g., Cole, 935 F.3d at 456 (“we consider only
what the officers knew at the time of their challenged conduct”)
(collecting cases). Here, nothing in the record suggests who else (if
not Winzer) might have been the shooter who terrorized the
innocent citizens of Kaufman County that day.
1

10a
potentially life-saving actions—and that its taxpayers,
including those who will forever be traumatized by
Winzer’s acts of terror, will pick up the tab for any
judgment.
I have deep concerns about the message this
decision, and others like it, sends to the men and
women who swear an oath to protect our lives and
communities. For make no mistake, that message is
this: See something, do nothing.
What’s more, we have no business—no factual
basis in the record, and no legal basis under the
Fourth Amendment—second-guessing split-second
decisions by police officers from the safety of our
chambers. To quote Judge Clement again, “we
judges—mercifully—never face that split second.
Indeed, we never have to decide anything without
deliberation—let alone whether we must end one
person’s life to preserve our own or the lives of those
around us.” Winzer, 916 F.3d at 482 (5th Cir. 2019)
(Clement, J., dissenting in part). “The majority
opinion, written from the comfort of courthouse
chambers, ignores” this reality. Id. See also Cole, 935
F.3d at 476 (Ho & Oldham, JJ., dissenting) (“No
member of this court has stared down a fleeing felon
on the interstate or confronted a mentally disturbed
teenager who is brandishing a loaded gun near his
school . . . . [We have] no basis for sneering at cops on
the beat from the safety of our chambers.”)
I respectfully dissent from the denial of rehearing
en banc.

11a
APPENDIX C
IN THE UNITED STATES COURT OF APPEALS
FOR THE FIFTH CIRCUIT
No. 16-11482
[Filed February 18, 2019]
EUNICE J. WINZER, Individually and on behalf of
the statutory beneficiaries of Gabriel A. Winzer;
SOHELIA WINZER; HENRY WINZER,
Plaintiffs – Appellants
v.
KAUFMAN COUNTY; BILL CUELLAR; GARRY
HUDDLESTON;
MATTHEW HINDS,Defendants - Appellees
HENRY ANDREE WINZER, also known as Henry A.
Winzer,
Plaintiff - Appellant
v.
MATTHEW HINDS, Individually and in his capacity
as member of Kaufman County Sheriff Department;
UNKNOWN STATE TROOPERS, Individually and in
their capacity as member of Texas Department of
Public
Safety;
UNKNOWN
PARAMEDICS,
Individually and in their capacity as emergency
responders of the East Texas EMS; SERGEANT
FORREST FRIESEN,
Defendants – Appellees.

12a
Appeals from the United States District Court for
the Northern District of Texas
Before DENNIS, CLEMENT, and GRAVES, Circuit
Judges.
PER CURIAM:
This case is a § 1983 action arising from the
deadly shooting of a young man by Kaufman County
law enforcement officers responding to a 911 call.
The district court dismissed all claims against
the individual officers and the county. We now
AFFIRM in part and REVERSE in part.
B ACKGROUND
I.

The use of force.

On April 27, 2013, 911 dispatchers received
multiple calls of a man standing in a rural street
shooting a pistol. The man reportedly was kicking at
mailboxes and pointed a gun at a house. The man
further appeared agitated, speaking to himself and
yelling “everyone’s going to get theirs” and “I’m just
trying to get back what’s mine.” Callers described
the suspect as a black male wearing a brown shirt
and jeans.
At approximately 10:30 am, dispatch relayed these
details to law enforcement units in the area. Pertinent
here, dispatch specifically informed the officers that the
suspect was a “black male wearing blue jeans and a
brown shirt.” Officers Matthew Hinds, Gerardo
Hinojosa, Gary Huddleston, William Cuellar, Brad

13a
Brewer, and Keith Wheeler responded immediately to
the area.
Hinds and Hinojosa arrived at the scene first
and observed a suspect matching dispatch’s
description in the road 150 yards away. Both officers
angled their vehicles to provide cover and took up
defensive positions. The suspect then raised his
hand and fired directly at Hinds and Hinojosa.1
Neither officer returned fire because there were
multiple civilians in the area. Hinds “relayed to
dispatch that shots had been fired by the suspect.”
The officers did not report that the suspect was in
possession of a bicycle. The suspect then disappeared
into the trees and the officers lost visual contact.
Appellants’ summary judgment evidence indicates
that at the time of this shooting, Gabriel Winzer, the
decedent, was inside his father’s house and did not
fire this shot at the officers.
Shortly thereafter, Huddleston, Cuellar,
Wheeler arrived. Hinds informed Cuellar
Wheeler that a suspect had fired shots at him
Hinojosa. Hinds told at least Cuellar that
suspect was “wearing a brown shirt.”

and
and
and
the

The suspect then re-appeared at a distance
between 100 to 500 yards from the officers. Because
It is not clear if Appellants dispute whether this shot was in fact
fired. For purposes of this appeal, we assume that a suspect did fire a
shot at Hinds and Hinojosa. Appellees have presented
contemporaneous video and radio records from police dashboard
cameras indicating “shots fired.” We cannot and do not assume,
however, that Gabriel Winzer was the suspect who fired the shot.
1

14a
there were civilians in the area between the officers
and the suspect, the officers decided to “move down
[the road] to keep the public safe and attempt to move
them inside their homes.” At this point, the officers
again confirmed several times that the suspect was
wearing a brown shirt. The officers advanced down the
road in a defensive position secured by three vehicles.
As they advanced, the officers directed civilians into
their homes. During the approach, the officers lost
sight of the suspect. Accordingly, upon reaching the
suspect’s last known location, the officers set up a
defensive position “for better cover.” Hinds “angled
[his] vehicle near the southwest corner [of the street],
Trooper Hinojosa angled his vehicle near the
northwest corner, and Deputy Wheeler positioned his
marked Chevy Tahoe behind and centered between
those vehicles.”
Huddleston was on the Tahoe’s driver’s side.
Cuellar was kneeling down on the driver’s side by the
front tire. Wheeler was away from the Tahoe in a
ditch. Hinds and Hinojosa were near the passenger
rear of the Tahoe. Four of the law enforcement officers
had semi-automatic rifles and one had a shotgun.
The officers began giving verbal commands for
the suspect to drop his weapon and “come out.”
“After a few minutes,” the officers spotted a figure
on a bicycle enter the road. The rider was wearing a
blue jacket instead of the brown shirt the suspect had
been wearing, and was over 100 yards away. What
happened next is highly disputed2 and central to the
resolution of this appeal. All of the officers claim the

15a
rider was armed, raised a pistol to a firing position,
and they feared for their lives.
As it turned out, the person on the bicycle was
Gabriel Winzer, and not the suspect who had fired at
Hinds and Hinojosa. According to Appellants, Gabriel
was on an innocent mission to show the officers his toy
pistol. Gabriel’s father claims that when Gabriel rode
off toward the officers “[he] did not have anything in
his hands," "had both hands on the handle bar of his
bike," and "did not reach for anything nor did he have
anything in his hands when he was shot.” Moreover,
Mr. Winzer claims that Gabriel was “unarmed,” “did
not fire any shots,” and “did not point anything
towards the deputies.” Indeed, Mr. Winzer states that
“Gabriel did not move his hands in any way that might
have suggested that he was reaching for something.”
While Gabriel’s actions on the bike are disputed,2
it is beyond dispute that an officer yelled “put that
down!” The officers then fired within six seconds of
spotting Gabriel on his bike. Three officers fired
Bushmaster AR-15s, one officer fired an M4 patrol
rifle, and the fifth fired a Remington 870 shotgun. In
total, seventeen shots were fired. Four bullets struck
Gabriel, who was still over 100 yards from the officers.
Upon being hit, Gabriel fell off his bike and fled out of
view. The officers remained in their positions before

2

“Because this case comes to us on appeal from a summary
judgment, we are obliged to review the record and construe the facts
in the light most favorable to [Appellants], the nonmoving part[ies] in
the court below.” See Sanders v. English, 950 F.2d 1152, 1154 (5th
Cir. 1992); see also Tolan v. Cotton, 134 S. Ct. 1861, 1866 (2014).

16a
fanning out to set up a perimeter around Gabriel’s
house.
Meanwhile, Henry Winzer, Gabriel’s father, was
attempting to provide assistance to Gabriel in their
back yard. After some time, the officers surrounded
the yard and advanced on Gabriel and Henry. Henry
told Hinojosa that Gabriel had been shot. As they
approached, the officers asked Henry where the gun
was. Henry informed the officers that the only gun
they had was a toy cap gun. Henry then tossed a toy
gun towards the officers and said “there is your gun.”
Nonetheless, the officers approached with caution
because the “suspect had his arms underneath his
body and no one knew whether he still had a weapon.”
When the officers attempted to cuff Henry and
Gabriel, both resisted. Huddleston and Brewer both
tased Gabriel during this encounter. About 10
seconds after the last Taser deployment, [Gabriel]
went limp and [the officers] were able to handcuff
him. EMS later pronounced Gabriel dead at the
scene.
I I.

The Procedural History

On April 22, 2015, Henry filed cause number 15cv-01295, in the Northern District of Texas. In a pro
se complaint, Henry asserted claims against Hinds,
“unknown
state
troopers,”
and
“unknown
paramedics.” Compl. at 1, Winzer v. Hinds et al., No.
15-cv-01295 (N.D. Tex. 2015), ECF No. 1 (“Henry
Complaint”).
Separately, on April 27, 2015, Eunice Winzer,
Gabriel’s mother, filed cause number 15-cv-01284, in

17a
the Northern District of Texas against “Kaufman
County,” “City of Kaufman,” and “City of Terrell.”3
None of the officers involved in the incident were
named defendants. See Eunice subsequently filed an
amended complaint and a second amended
complaint, again failing to list any of the officers as
named defendants.
On September 18, 2015, Eunice filed a third
amended complaint in 15-cv-01284 individually and
on behalf of Henry.4 The Third Amended Complaint
alleged violations of Gabriel’s Fourth Amendment
right against excessive force and failure to train
against several defendants. Relevant here, Appellants
listed Cuellar and Huddleston as named defendants
for the first time. Appellants additionally formally
added Hinds as a named defendant in cause number
15-cv-01284. This essentially consolidated the parties
from the two pending lawsuits and, on September 21,
2015, the Court formally consolidated the cases.
On January 15, 2016, Hinds, Cuellar, and
Huddleston filed a motion for summary judgment.
Cuellar and Huddleston argued that the claims
against them were time-barred. All three of these
officers also asserted that they were entitled to
qualified immunity.
While the motion for summary judgment was
pending, Appellants sought leave to file a fourth
Appellants later voluntarily dismissed the City of Terrell and
the City of Kaufman.
3

Appellants had retained counsel and were no longer pro se
as of May 12, 2015.
4

18a
amended complaint to add Hinojosa and Wheeler as
defendants. The district court denied the motion for
leave to amend. The court ultimately granted
summary judgment on both the limitations and
qualified immunity defenses. Kaufman County then
promptly sought summary judgment, arguing that
there could be no county liability if there was no
constitutional violation by its officers. The court
granted Kaufman County summary judgment. The
district court denied a motion for reconsideration, and
this appeal followed.
D ISCUSSION
Appellants argue that the district court erred in
four ways. First, that the district court erred in
granting summary judgment to Cuellar and
Huddleston based on limitations. Second, that the
district court erred in denying leave to add Hinojosa
and Wheeler as defendants. Third, that the court
erred in granting summary judgment to Hinds based
on qualified immunity. Fourth, that the court erred
in granting summary judgment to Kaufman County.
We address each in turn.
I.

Claims Against Cuellar and Huddleston Are
Time-Barred

The district court ruled that Appellants’ claims
against Cuellar and Huddleston were barred by a
two-year statute of limitations. Appellants argue
that the court should have related the claims back to
the date of the original complaints. The district court
did not err.

19a
The limitations period for a § 1983 action is
determined by the state’s personal injury limitations
period. Whitt v. Stephens Cnty., 529 F.3d 278, 282
(5th Cir. 2008). In Texas, that period is two years. Id.
When a plaintiff adds a defendant after the limitations
period has run, Rule 15(c) allows the plaintiff to relate
the claims filed against the new defendant back to the
date of the original filing. See Fed. R. Civ. P. 15(c). To
do so, the plaintiff must show both that the added
defendant received adequate notice of the original
lawsuit and that the defendant knew that, but for a
mistake concerning the identity of the defendant, the
action would have originally been brought against the
defendant. Jacobsen v. Osborne, 133 F.3d 315, 319-22
(5th Cir. 1998). Rule 15(c) is meant to “correct a
mistake concerning the identity of the party.” Id. at
321. “Rule 15(c) does not allow an amended complaint
adding new defendants to relate back if the newlyadded defendants were not named originally because
the plaintiff did not know their identities.”’ Id. (quoting
Barrow v.Wethersfield Police Dep’t, 66 F.3d 466, 470
(2d Cir. 1995)). We review a grant of summary
judgment de novo. Whitt, 529 F.3d at 282.
The incident at issue occurred on April 27, 2013.
Accordingly, Appellants had to file suit by April 27,
2015. See Whitt, 529 F.3d at 282. Appellants did not
add Cuellar or Huddleston as named defendants until
their Third Amended Complaint on September 21,
2015. Appellants added Cuellar and Huddleston,
therefore, after the two-year limitations period had
expired.
Nonetheless, Appellants argue that their claims
against Cuellar and Huddleston should “relate back”

20a
to the filing of the original complaint under Rule
15(c). Appellants assert two primary grounds for
that argument: (1) the original complaint listed
“unknown officers” that clearly gave the defendants
notice; and (2) Appellants diligently tried to identify
the officers and added them as soon as they did.
Neither argument has merit.
First, this court has clearly held that “an
amendment to substitute a named party for a John
Doe does not relate back under Rule 15(c).” Whitt,
529 F.3d at 282-83. Thus, to the extent Appellants
sued “unknown officers,” they cannot use these
"John Doe" claims to now substitute in Cuellar and
Huddleston after the limitations period. Id.
Second, even if Appellants were diligent in trying
to identify Cuellar and Huddleston, such failures to
identify do not relate back. Rule 15(c) requires a
“mistake concerning the identity of a party.” See
Jacobsen, 133 F.3d at 321.5

Appellants further cite to Jacobsen v. Osborne, 133 F.3d 315 (5th
Cir. 1998), for the proposition that an “identity of interest” “exception”
to Rule 15(c) saves their claims. However, this doctrine only applies
to Rule 15(c)'s requirement that the substituted party must have
received notice of the suit. Jacobsen, 133 F.3d at 320. It does not
relate to 15(c)'s second requirement that there also be a mistake of
identity. See id. at 319. It is on the second requirement that
Appellants’ argument fails and the “identity of interest” exception
does not cure that fault. See id. at 320-21 (applying “identity of
interest” exception to imply notice where plaintiff mistakenly named
individual officer, but not applying “identify of interest” exception to
claims against unnamed John Doe deputies).
5

21a
“[Flailing to identify individual defendants cannot be
characterized as a mistake.” Id.
The district court did not err in granting
summary judgment to Cuellar and Huddleston based
on the statute of limitations.
II.

Claims Against Hinojosa and Wheeler Were
Futile

The district court denied leave to amend to add
Hinojosa and Wheeler on the grounds that the
claims would be futile as barred by the statute of
limitations. Appellants again assert that the claims
against Wheeler and Huddleston should relate back
under Rule 15(c). Appellants’ argument lacks merit.
“A district court’s denial of leave to amend is
reviewed for an abuse of discretion.” Simmons v.
Sabine River Auth. La., 732 F.3d 469, 478 (5th Cir.
2013). “Although leave to amend under Rule 15(a) is to
be freely given, that generous standard is tempered by
the necessary power of a district court to manage a
case.” Schiller v. Physicians Res. Grp., Inc., 342 F.3d
563, 566 (5th Cir. 2003). A district court does not abuse
its discretion in denying leave where claims against
new defendants are barred by the statute of
limitations. See Whitt, 529 F.3d at 282-83.
Appellants’ argument lacks merit for the same
reason their claims against Cuellar and Huddleston
are untimely. Appellants had to add Hinojosa and
Wheeler by April 27, 2015. See id. Appellants did not
seek leave to add Hinojosa and Wheeler until
February 18, 2016. The only grounds Appellants gave
for their failure to do so is that Appellants “did not

22a
know the identities” of Wheeler or Hinojosa until
conducting discovery. Again, Rule 15(c) requires a
“mistake concerning the identity of a party.” See
Jacobsen, 133 F.3d at 321. “[Flailing to identify
individual defendants cannot be characterized as a
mistake.” Id.
The district court did not abuse its discretion in
denying leave to amend because those claims were
futile as barred by the statute of limitations.
I II. A Material Fact Issue Exists as to
Hinds’s Qualified Immunity
The district court determined that Hinds was
entitled to qualified immunity because he had
“probable cause” to believe that Gabriel “posed a
threat of serious bodily harm.” Appellants argue that
in reaching that conclusion, the district court
“improperly gave greater credence to Hinds’s
evidence regarding the reasonableness of the force
that he used.” We agree. Before addressing the
merits of Hinds’s qualified immunity claim, we first
address the district court’s refusal to consider
Henry’s affidavit testimony.
A. Henry Winzer's Affidavit
The district court disregarded Henry’s affidavit
under the “sham affidavit” doctrine, concluding it
contradicted statements in Henry’s original
complaint. This was an abuse of discretion. See
Williams v. Manitowoc Cranes, L.L.C., 898 F.3d 607,
615 (5th Cir. 2018) (“A district court abuses its
discretion when its [evidentiary] ruling is based on

23a
an erroneous view of the law or a clearly erroneous
assessment of the evidence.”).
Under the sham affidavit doctrine, a district court
may refuse to consider statements made in an affidavit
that are “so markedly inconsistent” with a prior
statement as to “constitute an obvious sham.” Clark v.
Resistoflex Co., A Div. of Unidynamics Corp., 854 F.2d
762, 766 (5th Cir. 1988); see also Aerel, S.R.L. v. PCC
Airfolis, L.L.C., 448 F.3d 899, 907 (6th Cir. 2006)
(stating that the sham affidavit rule is only appropriate
where an affidavit “directly contradicts” prior
testimony); Kennett-Murray Corp. v. Bone, 622 F.2d
887, 894 (5th Cir. 1980) (finding that the sham
affidavit rule was inappropriate because the affidavit
was not “inherently inconsistent” with prior testimony).
However, not “every discrepancy” in an affidavit
justifies a district court’s refusal to give credence to
competent summary judgment evidence. KennettMurray, 622 F.2d at 893. Generally, “[i]n considering
a motion for summary judgment, a district court
must consider all the evidence before it and cannot
disregard a party’s affidavit merely because it
conflicts to some degree with an earlier” statement.
Id. “In light of the jury’s role in resolving questions
of credibility, a district court should not reject the
content of an affidavit even if it is at odds with
statements made” earlier. Id.
There is nothing inherently inconsistent between
Henry’s original complaint and the summary judgment
affidavit. 6 The complaint stated that Gabriel “had” a
We cannot join with the dissent’s accusation that Henry
“[c]onveniently” altered details to “create the key factual dispute.”
Henry’s original “complaint” was a five sentence, hand-written
6

24a
plastic toy gun and that he “rode out on a 10 speed
bicycle to show [the officers] the toy gun,” but contained
no factual allegation regarding where Gabriel “had” the
gun as he rode the bike. Henry Compl. 4. Meanwhile,
the affidavit says that Gabriel was “playing with a
bright orange toy gun,” but further explains that
“Gabriel did not have anything in his hands, including
the toy gun, while he was on the bike.” Instead, Gabriel
“had both hands on the handlebars of his bike” and “did
not move his hands in any way that might have
suggested he was reaching for something.” It is entirely
possible that Gabriel rode out on his bicycle with the toy
gun in his waistband (or elsewhere on his person) and
had his hands on the handlebars of his bicycle at all
relevant times.? 7 Because these statements can be
“reconciled,” there is no sham. See Robinson v. Nexion
Health at Terrell, Inc., 671 F. App’x 344, 344 (5th
Cir. 2016) (reconcilable affidavits cannot be sham).

statement placed into the limited space of a form-petition for pro se
litigants. See Henry Compl. 4. Thus, it is no surprise that Henry
failed to include every pertinent factual detail to his claims. We will
not punish Henry for the clear, non-conflicting benefit he received by
attaining competent counsel. Indeed, the affidavit is entirely
consistent with the third amended complaint, which was drafted
with the assistance of counsel and was the live pleading at the time
of Hinds’s motion.
It is not a “clear implication” from the complaint, as the dissent
asserts, that Gabriel “was holding [the gun] out” as he rode his bike to
show the toy gun to the officers. One does not necessarily, nor even
normally, “hold out” an object in front of them as they traverse over
100 yards, on a bicycle, to show an object to another. Especially when
that object is a toy gun and the individual is approaching a group
of armed police officers. Perhaps more significantly, that “clear
implication” is directly contrary to the complaint’s allegation
that Gabriel was “an unarmed man.” Henry Compl. 3.
7

25a
Moreover, while the affidavit significantly
supplements the complaint factually, it contradicts
nothing. We have held that the sham affidavit
doctrine is inappropriate where an “affidavit
supplements, rather than contradicts” an earlier
statement. Clark, 854 F.2d at 766. At most, the
affidavit creates a credibility issue for Henry's version
of the facts. Such credibility determinations, however,
are for the trier of fact, not the district court. See
Kennett-Murray, 622 F.2d at 894; Tarver v. City of
Edna, 410 F.3d 745, 753 (5th Cir. 2005) (“Any
credibility determination made between the officers'
and [Henry's] version of events is inappropriate for
summary judgment.”).
Thus, the district court abused its discretion in
applying the sham affidavit doctrine to exclude
Henry's competent summary judgment evidence. See
Williams, 898 F.3d at 615; Clark, 854 F.2d at 766;
Kennett-Murray, 622 F.2d at 894. “The harmless
error doctrine applies to the review of evidentiary
rulings, so even if a district court has abused its
discretion, [this court] will not reverse unless the
error affected ‘the substantial rights of the parties.’”
See Williams, 898 F.3d at 615 (internal citations and
quotation marks omitted). However, an error is not
harmless where, as here, it affected Appellants’
substantial rights by “tipp[ing] the balance” of the
outcome at summary judgment and thereby severely
inhibiting their ability to assert their claim. See
Dartez v. Fibreboard Corp., 765 F.2d 456, 469 (5th
Cir. 1985) (finding an evidentiary ruling affected
substantial rights where it “tipped the balance in
favor of finding liability”); see also E.E.O.C. v.
Manville Sales Corp., 27 F.3d 1089, 1094-95 (5th Cir.

26a
1994) (finding an evidentiary ruling affected
substantial rights where it “directly impact [ed] the
ability of [the plaintiff] to enforce his rights”). We
conclude that the district court’s exclusion of Henry’s
affidavit was an abuse of discretion that affected the
Winzers’ substantial rights. Accordingly, in
analyzing the qualified immunity issue below, we
consider the facts as stated in Henry's affidavit.
B. Qualified Immunity
“To determine whether qualified immunity
applies, [we] engage 1] in a two-part inquiry asking:
first, whether ‘[t] aken in the light most favorable to
the party asserting the injury, . . . the facts alleged
show the officer's conduct violated a constitutional
right;’ and second, ‘whether the right was clearly
established.’” Trammell v. Fruge, 868 F.3d 332, 339
(5th Cir. 2017) (quoting Saucier v. Katz, 533 U.S. 194,
201 (2001)). We have discretion to address either
prong of the qualified-immunity inquiry first. See
Pearson v. Callahan, 555 U.S. 223, 236 (2009) (noting
that “the two-step procedure promotes the
development of constitutional precedent and is
especially valuable with respect to questions that do
not frequently arise in cases in which a qualified
immunity defense is unavailable”). “[U]nder either
prong, [we] may not resolve genuine disputes of fact in
favor of the party seeking summary judgment.” Tolan
v. Cotton, 134 S. Ct. 1861, 1866 (2014). “[We] must
view the evidence 'in the light most favorable to the
opposing party.’” Id. (quoting Adickes v. S.H. Kress &
Co., 398 U.S. 144, 157 (1970)).

27a
1. Violation of a Constitutional Right
In the first prong of a qualified immunity
analysis, we must “answer the constitutional
violation question by determining whether the
officer’s conduct met the Fourth Amendment’s
reasonableness requirement.” Lytle v. Bexar Cnty.,
Tex., 560 F.3d 404, 410 (5th Cir. 2009).
Under
the
Fourth
Amendment,
“it
is
unreasonable for an officer to ‘seize an unarmed,
nondangerous suspect by shooting him dead.’”
Brosseau v. Haugen, 543 U.S. 194, 197 (2004) (quoting
Tennessee v. Garner, 471 U.S. 1, 11 (1985)). “It is not,
however, unconstitutional on its face.” Garner, 471
U.S. at 11. “Where the officer has probable cause to
believe that the suspect poses a threat of serious
physical harm, either to the officer or to others, it is
not constitutionally unreasonable to prevent escape by
using deadly force.” Id.
“The ‘reasonableness’ of a particular use of force
must be judged from the perspective of a reasonable
officer on the scene, rather than with the 20/20 vision
of hindsight.” Graham v. Connor, 490 U.S. 386, 396
(1989). “[I]ts proper application requires careful
attention to the facts and circumstances of each
particular case, including the severity of the crime at
issue, whether the suspect poses an immediate threat
to the safety of the officers or others, and whether he is
actively resisting arrest or attempting to evade arrest
by flight.” Id. This reasonableness inquiry is an
objective one. Id. at 397. “[T]he question is whether the

28a
officers’ actions are ‘objectively reasonable’ in light of
the facts and circumstances confronting them, without
regard to their underlying intent or motivation.” Id.
We only consider facts that were “knowable” to Hinds.
See White v. Pauly, 137 S. Ct. 548, 550 (2017).
The district court concluded that “a reasonable
officer on the scene . . . could have easily drawn the
inference that the black man cycling towards five
armed police officers, disregarding their orders to drop
his weapon, and raising his arm in their direction was
the same black man who had so brazenly fired upon
them just around the corner.” The errors in the
district court’s analysis are myriad.
First, as discussed above, the central error is the
district court’s failure to credit Henry’s testimony,
instead adopting the officers’ characterization of the
events preceding the shooting. This alone is
reversible error. See Tolan, 134 S. Ct. at 1866
(reversing qualified immunity analysis at summary
judgment stage where this court failed to view the
evidence in the light most favorable to the nonmoving party).
Second, the district court improperly concluded
that Gabriel was “raising his arm” towards the police.
This is directly contrary to Appellants’ summary
judgment affidavit, which claims that “Gabriel had
both hands on the handle bar of his bike.” Further,
Henry claims that “Gabriel did not point anything
towards the deputies” and “did not move his hands in
any way that might have suggested that he was
reaching for something.” The district court should have
viewed these statements “in the light most favorable”

29a
to Appellants in determining whether an objectively
reasonable officer would have concluded that Gabriel
posed an “immediate threat” to the safety of the
officers or others. See Tolan, 134 S. Ct. at 1866;
Graham, 490 U.S. at 396; Bazan v. Hidalgo Cty., 246
F.3d 481, 493 (5th Cir. 2001) (stating that the
excessive force inquiry is confined to whether the
officer “was in danger at the moment of the threat that
resulted in the [officer’s] shooting [the victim]”).
Third, the district court ignored facts in the record
casting doubt on whether a reasonable officer would
have concluded that the “black man cycling towards
[the officers] . . . was the same black man who had so
brazenly fired upon them” earlier. For instance, Hinds
had informed Cuellar that the suspect who fired the
shots was “wearing a brown shirt.” In fact, the officers
repeatedly informed each other that the suspect was in
a “brown shirt.” The man on the bike, however, was
wearing a blue jacket. 8 Further, the officers had no
indication at all that the dangerous suspect, who had
fired a shot at Hinds and Hinojosa earlier, had a
bicycle. Moreover, the man on the bike was over 100
yards away and there had been numerous civilians in
the area throughout the encounter. A jury could
conclude that a reasonable officer would not have
determined that Gabriel was the dangerous suspect.
See Lytle, 560 F.3d at 41213 (finding genuine fact
issues as to whether an officer’s firing at approaching
vehicle was unreasonable, even if vehicle posed a
threat to officer, where shots fired in residential area
could pose risk to civilians).
After the shooting, one of the officers stated that “he was in
blue, that’s what threw me off.”
8

30a
Fourth, the district court’s conclusion that Gabriel
“disregard[ed] their orders to drop his weapon,” aside
from improperly concluding on summary judgment
that Gabriel had a weapon, is contradicted by the
video evidence, which shows the officers fired on
Gabriel within a second of shouting to “put that down!”
The video further shows that Gabriel turned a treelined corner on his bicycle (that could possibly have
obstructed his view of the officers), made a child-like
“figure 3,” and then only momentarily headed towards
the officers before being shot. It is far from clear that
Gabriel had the opportunity to be deterred by the
officers’ warnings or to even register their commands.
See Trammell, 868 F.3d at 342 (“[T]he quickness with
which the officers resorted to” deadly force “militates
against a finding of reasonableness.”).
Statements audible in the video further
demonstrate Hinds’s lack of reasonableness. Seconds
prior to the shooting, an officer appears to state that
Gabriel “had that gun,”9 while another shouts to “put
that down!” Though these statements weigh in Hinds’s
favor, they must be balanced against competing
evidence that Gabriel did not match the suspect’s
description, did not have anything in his hands, had
both hands on the handlebar of his bike, and did not
reach for anything. They must further be balanced
We note that there are conflicting facts regarding the gun
Gabriel “had” at the time of the shooting. Henry claims that Gabriel
had a “bright orange toy gun.” The officers, however, claim the gun
was “dull colored,” “dark colored,” or “silver,” depending on whose
affidavit you consult. Henry later tossed a toy gun towards the
officers when the officers entered the Winzers’ backyard to secure
Gabriel. There is no evidence that any real firearm was ever found
in Gabriel’s possession or anywhere in his path.
9

31a
with the undisputed facts that Gabriel was over 100
yards away, on a bicycle, and slowly approaching
five officers barricaded behind three vehicles and
with high powered rifles drawn and ready.10 It is for
a jury to determine whether a reasonable officer on
the scene, when confronted with these facts, would
have determined that Gabriel posed such an
imminent risk to the officers that use of deadly force
was justified within seconds of his appearance.
Given the district court’s multifarious errors, and
that we must consider the facts in the light most
favorable to Appellants, we conclude that it is proper to
consider only the following facts in determining
whether an objectively reasonable officer would have
believed that Gabriel posed an imminent threat and
whether Hinds’s use of force was constitutional. Hinds
responded to a 911 call of a man with a gun. The
suspect was a black male, afoot and wearing a brown
shirt. Upon Hinds’s arrival, the suspect fired a shot at
Hinds and Hinojosa. Hinds then lost sight of the
suspect. The officers encountered numerous civilians
along the road as they searched for the suspect. The
officers eventually set up a defensive barrier complete
with three vehicles, five officers, four semiautomatic
The dissent would likewise violate Tolan, stating that Hinds
acted reasonably because Gabriel was “riding headlong” at the
officers. Yet, there is no evidence that Gabriel was “riding headlong”
at the officers. Henry claims that Gabriel was “on his bike.” The
officers, for their part, state only that Gabriel was “coming” towards
them while “riding” a bicycle. The video likewise shows that Gabriel
dawdled slightly before turning toward the officers. In fact,
accepting Henry’s claim that Gabriel did not raise his arm towards
the officers, as we must, there is no evidence indicating that the
officers reasonably believed that Gabriel made any aggressive
movements whatsoever prior to the shooting.
10

32a
rifles, and a shotgun on a road in the vicinity of the
suspect’s last known location. Minutes later, Gabriel, on
his bike and dressed in blue, not brown, appeared on
the same street as the last known location of the
suspect. Gabriel was riding his bicycle more than 100
yards away. Further, Gabriel did not have anything in
his hands, had both hands on the handlebar of his
bike, did not reach for anything, did not point anything
towards the deputies, and was unarmed. Nonetheless,
an officer stated that Gabriel “had that gun,” while
another screamed “put that down!” Hinds opened fire
on Gabriel within seconds of spotting him.11
While “[w]e are loath to second-guess the
decisions made by police officers in the field,” see
Vaughan v. Cox, 343 F.3d 1323, 1331 (11th Cir.
2003) (citing Graham, 490 U.S. at 396-97), we
conclude that a jury could find that the use of deadly
force was unreasonable if it credited and drew
reasonable inferences from the Winzers’ account.
Accordingly, Hinds was not entitled to qualified
immunity under the first prong.
2.

Clearly-Established Law

Having determined that there are genuine issues
of material fact with respect to whether Hinds’s use of
deadly force was objectively reasonable, the question
remains “whether the right was clearly established at
the time of the conduct.” Lytle, 560 F.3d at 410. The
Contrary to the dissent's claim that we impose a 20/20
hindsight analysis, these facts are construed from Hinds’s
perspective at the time of the shooting, while also taking into
account our duty to construe the evidence in the light most
favorable to the non-moving party.
11

33a
Supreme Court has held that we cannot “define
clearly established law at a high level of generality.”
Ashcroft v. al-Kidd, 563 U.S. 732, 742 (2011). This
inquiry ‘must be undertaken in light of the specific
context of the case, not as a broad general
proposition.””Mullenix v. Luna, 136 S. Ct. 305, 308
(2015) (quoting Brosseau, 543 U.S. at 198-99). The
Supreme Court does “not require a case directly on
point, but existing precedent must have placed the
statutory or constitutional question beyond debate.”
Ashcroft, 563 U.S. at 741. Under this exacting
standard, we cannot conclude that Gabriel’s right to
be free from excessive force was clearly established
here.
I V. Summary Judgment Premature for Kaufman
County
The district court granted summary judgment in
favor of Kaufman County based on its ruling that
there was no constitutional violation and the officers
were entitled to qualified immunity. See HicksFields v. Harris Cty., Texas, 860 F.3d 803, 808 (5th
Cir. 2017) (“[T]o establish municipal liability under §
1983, a plaintiff must show that (1) an official policy
(2) promulgated by the municipal policymaker (3)
was the moving force behind the violation of a
constitutional right.”). Because we determine that
there are genuine issues of fact as to whether there
was a constitutional violation, we reverse the district
court’s grant of summary judgment to the county as
premature and remand to the district court for
reconsideration.

34a
C ONCLUSION
For these reasons, we REVERSE the district
court’s grant of summary judgment to the county
and REMAND for consideration in light of this
opinion. We otherwise AFFIRM.

35a
EDITH BROWN
dissenting in part.

CLEMENT,

Circuit

Judge,

The majority has correctly concluded that Officer
Hinds is entitled to qualified immunity due to the
lack of clearly established law. But en route to this
decision, it has taken an unnecessarily difficult path,
disregarding the deference long afforded to district
courts’ evidentiary rulings and misapplying well-worn
qualified immunity standards. In light of these
significant errors, I dissent from sections III(A),
III(B)(1), and IV of the opinion.
I.
As to the evidentiary error, the majority seems to
concede that if Gabriel was pointing the gun (or toy
gun) at the officers, Officer Hinds’s decision to shoot
should be protected. But it concludes that the district
court erred when it rejected an affidavit from Gabriel’s
father, Henry, which stated that no gun was in view.
This failure to admit the affidavit and credit its
version of the incident was apparently the “central
error” of the court’s analysis. The majority thus bases
its conclusion that a constitutional violation may have
occurred on a five-page document—submitted one
month after Officer Hinds’s motion for summary
judgment—that
contravenes
the
unanimous
observation of the witnessing officers recorded in their
sworn statements and in video-recorded utterances
prior to the shooting, and, as addressed more
thoroughly below, Henry’s own initial complaint.1
Note that in framing the dispute over the affidavit, the majority
opinion errs by presenting certain facts from the affidavit as if they
1

36a
The problems with the majority’s analysis stem
from an unfaithful application of the standard of
review. We are told that the applicable standard—
review for abuse of discretion—requires the court to
find a “clearly erroneous assessment of the evidence”
that affected substantial rights. Accordingly, as the
majority concedes, the key question here is not
whether the district court merely erred when it
concluded Henry Winzer’s affidavit was a sham;
rather, it is whether the district court abused its
discretion in doing so. The answer: No, it obviously did
not.
“It is well settled that this court does not allow a
party to defeat a motion for summary judgment using
an affidavit that impeaches, without explanation,
sworn testimony.” S. W.S. Erectors, Inc. v. Infax, Inc.,
72 F.3d 489, 495 (5th Cir. 1996); see also Vincent v.
Coll. of Mainland, 703 F. App’x 233, 238 (5th Cir. 2017)
(“Conclusory, self-serving affidavits are insufficient to
create a fact issue when they contradict prior
testimony.”). Accordingly, the district court may
appropriately reject such statements that create a clear
discrepancy with prior accounts—especially when no
explanation for the conflict is offered. See Albertson v.
T.J. Stevenson & Co., 749 F.2d 223, 228 (5th Cir. 1984).
Henry Winzer’s initial, pro se complaint—
challenging the officers’ use of force—stated that
Gabriel “had a plastic toy cap gun” and “rode out on a
are beyond dispute. For example, the majority baldly asserts that
Gabriel “was inside his father’s house and did not fire” at the police
officers during their initial encounter with the suspect. But the sole
source for this fact is the contested affidavit. It therefore belongs
among the “highly disputed” facts which come later in the opinion.

37a
10 speed bicycle to show [the officers] the toy gun.” A
clear implication of this observation is that Gabriel
was holding out the object “to show them” the toy, or
at a minimum that the toy would have been visible to
the officers. The majority’s suggested interpretation
to the contrary (leaving open the possibility that the
gun was concealed) may be an acceptable one, but it
does not follow that the district court’s similarly
reasonable interpretation of the complaint was
wrong. At the very least, it was not an abuse of
discretion for the district court to interpret the
statement as it did.2
Henry Winzer's first account was compatible with
the unanimous testimony of the police officers on the
scene. Then, one month after defendants’ summary
judgment motion and after Henry Winzer obtained
counsel, the court received a new affidavit that told a
different story. As it turns out, Henry Winzer's initial
account was mistaken: Gabriel’s hands were on the
bike's handlebars at the time of the shooting, and the

The majority suggests that it would be abnormal for someone to
hold out an object in front of them as they ride a bicycle towards a
group of individuals to show them the object. They say that is
especially true “when that object is a toy gun” and the group being
approached is formed of armed police officers. But riding a bicycle
toward a group of police officers with any type of gun is abnormal
when gunshots had just been fired, the officers were obviously in a
defensive posture, and the officers had just told all civilians to return
to their homes. Yet that is indisputably what occurred. The majority
does not seem to appreciate the tragic reality that Gabriel's
actions—even accepting Henry’s version as true—were strange and
dangerous. Officer Hinds’s reaction to Gabriel’s unusual behavior, on
the other hand, was reasonable.
2

38a
gun was not otherwise visible.3 No explanation for this
new version of the story was offered.
This case presents the appropriate circumstances
for an application of the sham affidavit doctrine. In
response to a summary judgment motion and with the
aid of counsel, Henry added material details in an
affidavit that significantly changed the story he
described in his original complaint. Conveniently,
every altered detail served to create the key factual
dispute that, according to the majority, could result in
a finding of a constitutional violation. The district
court correctly disregarded the affidavit as a sham.
The majority’s conclusion—after a lengthy discussion
relying on a strained reading of the complaint—that it
was an abuse of discretion for the district court to so
conclude is puzzling. After all, even if the district
court’s assessment of the inconsistency between the
complaint and the affidavit was wrong, we cannot
say that its assessment was “clearly erroneous.”
II.
If the district court is correct about the affidavit,
then the record evidence suggests Gabriel had a gun (or
toy gun) in his hand as he rode towards the officers. In
that case, it should be beyond dispute that Officer
Hinds rightfully received immunity for his decision to
shoot. But suppose this is wrong. Suppose instead that
the court was required to accept Henry’s affidavit and
Notably, the affidavit also includes facts that would have no
significance unless it were possible for the police officers to see
the gun. For example, it notes that “[i]t was clearly apparent
that the gun Gabriel had in his hand was not real, based on the
color and make of it.” (Emphasis added.)
3

39a
to credit his observation that Gabriel rode out to the
police officers with both hands on his bike. What then?
The result should be the same: Officer Hinds was
still entitled to this court’s recognition that his
behavior was reasonable. In concluding otherwise, the
majority misapprehends qualified immunity—both its
first principles and specific legal standards—and has
endangered Officer Hinds’s (and future law
enforcement officers’) rightful claim to it. See White v.
Pauly, 137 S. Ct. 548, 551-52 (2017) (explaining that,
because qualified immunity is “an immunity from
suit,” the protection “is effectively lost if a case is
erroneously permitted to go to trial” (internal
quotation marks omitted)).
A. Reviewing the Qualified Immunity
Standard
Before turning to a specific critique of the majority’s
conclusions, it is worth highlighting the fundamental
tenets of qualified immunity, since those tenets recede
to the background of the opinion. Qualified immunity is
grounded in the acknowledgment that officers must
make split-second judgments about the appropriate use
of force in chaotic, highly dangerous situations. Graham
v. Connor, 490 U.S. 386, 397 (1989). It is designed to
protect “officials from harassment, distraction, and
liability when they perform their duties reasonably,”
Pearson v. Callahan, 555 U.S. 223, 231 (2009) (noting
that this protection was “the driving force” behind the
doctrine’s creation), and to allow them “breathing room
to make reasonable but mistaken judgments about
open legal questions,” Ashcroft v. al-Kidd, 563 U.S. 731,
743 (2011). Accordingly, “once properly raised by the

40a
[officer], the ‘plaintiff has the burden to negate the
assertion of qualified immunity.’” King v. Handorf, 821
F.3d 650, 653 (5th Cir. 2016) (quoting Collier v.
Montgomery, 569 F.3d 214, 217 (5th Cir. 2009)).4
Both prongs of the qualified immunity standard
are imbued with this deference and respect. First, “[a]n
officer’s use of deadly force is presumptively reasonable
when the officer has reason to believe that the suspect
poses a threat of serious harm to the officer or to
others.” Ontiveros v. City of Rosenberg, 564 F.3d 379,
382 (5th Cir. 2009). Notably, “[t]he reasonableness of
the use of deadly force must be judged from the
perspective of a reasonable officer on the scene, rather
than with the 20/20 vision of hindsight.” Id. (internal
quotation omitted). The focus is only on what was
“knowable” to the individual officer at the time. White,
137 S. Ct. at 550. And, most importantly, our definition
of “reasonableness” cannot be grounded on what, upon
reflection "in the peace of a judge’s chambers,” seems
necessary; rather, it is defined by the chaotic
circumstances into which officers are thrust. Graham,
490 U.S. at 396-97 (internal quotation omitted). As the
Supreme Court has long emphasized, “[t]he calculus of
reasonableness must embody allowance for the fact
that police officers are often forced to make split-second
judgments—in circumstances that are tense, uncertain,
and rapidly evolving—about the amount of force that is
necessary in a particular situation.” Id.
Similarly, the “clearly established” prong protects
officers from having to parse nuances in case law from
Notably, the majority opinion fails to even acknowledge this
burden.
4

41a
various courts and jurisdictions to discover the bounds
of their conduct. Accordingly, our “inquiry . . . is
whether, under the law in effect at the time [of the
shooting], no reasonable officer could have believed
deadly force was lawful.” Manis v. Lawson, 585 F.3d
839, 846 (5th Cir. 2009). The officer loses protection
only if his conduct violates “controlling authority” or “a
robust consensus of cases of persuasive authority.” alKidd, 563 U.S. at 741-42 (internal quotation marks
omitted). Notably, that guidance must be finely tuned
to the specific “circumstances with which [the officer]
was confronted.” Anderson v. Creighton, 483 U.S. 635,
640 (1987). An unreasonable mistake of law regarding
the excessive use of force requires “existing precedent
[that] squarely governs the specific facts at issue.”
Kisela v. Hughes, 138 S. Ct. 1148, 1153 (2018)
(emphasis added) (internal quotation marks omitted).
We have “repeatedly” been told we are not permitted
“to define clearly established law at a high level of
generality.” City & County of San Francisco v.
Sheehan, 135 S. Ct. 1765, 1775-76 (2015) (quoting alKidd, 563 U.S. at 742).
Having set forth these principles, the specific
problems in the majority’s conclusions become obvious.
The majority fundamentally misapprehends this
guidance and has reached a result on the
reasonableness prong that is, simply put, wrong.
B. Officer Hinds committed
constitutional violation

no

The majority failed to give due weight to the
tense circumstances surrounding Officer Hinds at the
time of his decision to shoot. Instead, the majority

42a
argues
that
Officer
Hinds
unreasonably
misdiagnosed the danger he faced by highlighting
certain “competing evidence” to show that the officer
could have—should have—known that Gabriel was
not a threat. Notably, the majority uses the
accelerated timeline of events against Officer Hinds
when discussing evidence that suggests he behaved
reasonably, but then repeatedly faults Officer Hinds
for insufficiently considering other factors that
existed only fleetingly before the shooting began.
The majority’s implicit suggestion that Officer Hinds
could not reasonably have relied on video-recorded
utterances immediately prior to the shooting in
making his decision is just one example. In other
words, the majority imposes the sort of 20/20
hindsight analysis that we have forbidden. Cf.
Ontiveros, 564 F.3d at 384-85 (circumstantial
evidence that provided an innocuous explanation for
a suspect’s actions did not override a reasonable
interpretation to the contrary by an officer).
Here is Officer Hinds’s position based on the
uncontroverted facts: He was responding to a
dispatch that a man was recklessly shooting his
firearm in a residential area, threatening the lives of
innocent civilians in their homes. Upon Officer
Hinds’s arrival, the individual shot his gun at him
without provocation from a distance of 100-150
yards. The suspect then ran from Officer Hinds,
darting into private property for cover. In other
words, an extremely dangerous individual with a
gun was at large in a residential neighborhood,
posing an immediate and serious threat to the lives
of civilians and police officers.

43a
Officer Hinds and his fellow officers rightfully
proceeded with caution. They slowly moved up the
road with guns drawn, using their vehicles for
protection. They directed the innocent civilians they
passed to remain in their homes while they pursued
the suspect. Using their PA system, the officers also
commanded the suspect to come out of hiding and
surrender. No response.
Suddenly, an individual appeared on a bike close
to where the suspect had last been seen, riding
headlong at the police officers. 5 The individual
continued towards the officers, undeterred both by
their prior warnings to innocent civilians to stay in
their homes and by their commands to the suspect to
come out and surrender. He was also undeterred by
the fact that Officer Hinds and his fellow officers were
in a defensive position with their guns drawn. Gabriel
was approximately 100 yards from Officer Hinds at
the time—a similar distance from which the suspect
had just shot at him. As Gabriel got closer, one of the
officers warned his colleagues that Gabriel had a gun.
Another screamed, “Put that down!” Then shots were
fired.
Words are imperfect vessels for capturing the
chaos of such moments (the video recording does a
The majority takes issue with this account of the facts, claiming
it unfairly favors Officer Hinds. But its arguments in support are
unpersuasive. The majority claims that the dissent
mischaracterizes Gabriel’s actions to say he rode headlong at the
officers. According to my colleagues, the record supports only the
inference that Gabriel was “coming” towards the officers “while
‘riding’ a bicycle.” There is no meaningful distinction between these
accounts, let alone one that unfairly favors Officer Hinds.
5

44a
better job of conveying the tension). But all of this
happened. The events are undisputed.
It should come as no surprise that all of the officers
on the scene, including Officer Hinds, stated that they
feared for their safety and the safety of others at that
critical moment. And there was nothing unreasonable
about Officer Hinds’s decision to shoot. In that split
second, Officer Hinds was justified in concluding that
the individual riding at them while their guns were
drawn was the armed suspect. He had just heard that
Gabriel was holding a gun. And his own experience
with the suspect, as well as his knowledge that the
suspect had been shooting at his neighbors’ mailboxes,
justified his thought that Gabriel posed a serious
threat to his own, his fellow officers’, and other
civilians’ safety. 6 Regardless of any factual dispute
regarding the visibility of the gun Gabriel possessed
or the color of his shirt, Officer Hinds cannot be
faulted for acting out of a reasonable desire to
protect himself and the neighborhood by pulling the
trigger. None of the countervailing concerns noted by
the majority undercuts this conclusion. Officer Hinds
clearly “ha[d] reason to believe that the suspect
pose[d] a threat of serious harm to [him] or to
others.” Ontiveros, 564 F.3d at 382. He acted on that
The majority seems to think that innocent civilians were at risk by
the officers’ actions, relying on Lytle v. Bexar County, 560 F.3d 404
(5th Cir. 2009) for support. Its analogy to this case is forced. The court
in Lytle found that it would be unreasonable for an officer to fire at the
back of a car four houses down a residential block that was travelling
away from him in part due to the risk “that the shots might strike an
unintended target.” Id. at 412-13. The circumstances here are very
different: the officers took extensive precautions to ensure all innocent
civilians were out of harm’s way.
6

45a
reasonable belief. There was no constitutional
violation.
Critically, the majority’s counternarrative of the
pivotal moment includes subjective evaluations that
could only be discerned after a nuanced, repeated
review of the video evidence. For example, we are
told that Gabriel “made a child-like ‘figure 3’”—
instead of a more mature straight line, apparently—
and “dawdled slightly” before turning toward the
officers. These details regarding direction, posture,
and speed are not obvious from a review of the
footage in the quiet of an office. But the majority’s
imputation of such fine distinctions into its analysis
of what a reasonable officer should do when faced
with a split-second, life-or-death decision in real
time is particularly misguided. See Graham, 490
U.S. at 396-97.
In short, this dissent has simply looked at all of
the knowable—and uncontroverted—facts available
to Officer Hinds. And, after using the appropriate
sensitivity required to analyze such decisions, it has
concluded that the plaintiffs failed to meet their
burden to show his actions were objectively
unreasonable. By contrast, despite the majority’s
assurance that it is “loath to second-guess the
decisions made by police officers in the field” from a
privileged position of comfort, see Graham, 490 U.S.
at 396-97, this is precisely what it has done.
The majority’s analysis flouts well-established
legal guideposts and omits applicable burdens. Its
conclusion that Officer Hinds may have behaved
unreasonably is not persuasive. Fortunately, the

46a
majority at least gets the second prong of the
qualified immunity analysis right. But its failure to
accord appropriate deference to Officer Hinds on the
first prong is not only misguided—it invites future
error. And because the majority errs on the
reasonableness prong, Kaufman County is also
denied the summary judgment which is clearly
appropriate.
***
The implications of the majority’s mistakes
cannot be minimized. The majority decides that
qualified immunity can be endangered by an
affidavit filed at summary judgment that creates a
fact issue nowhere else supported by record
evidence.
Worse still, it seriously undermines officers’
ability to trust their judgment during those split
seconds when they must decide whether to use lethal
force. Qualified immunity is designed to respect that
judgment, requiring us to second-guess only when it
clearly violates the law. The standard acknowledges
that we judges—mercifully—never face that split
second. Indeed, we never have to decide anything
without deliberation—let alone whether we must
end one person’s life to preserve our own or the lives
of those around us.
The qualified immunity standard stops this
privilege from blinding our judgment, preventing us
from pretending we can place ourselves in the
officers’ position based on a cold appellate record. It
prevents us from hubristically declaring what an

47a
officer should have done—as if we can expect calm
calculation in the midst of chaos.
The majority opinion, written from the comfort of
courthouse chambers, ignores that deference. Instead,
it warns officers that they cannot trust what they see;
they cannot trust what their fellow officers observe;
they cannot trust themselves when posed with a
credible threat. It instructs them, in that pivotal split
second, to wait. But when a split second is all you
have, waiting itself is a decision—one that may bring
disastrous consequences.
Hopefully, these errors will be corrected before
we face their effects. In the meantime, I dissent.

48a
APPENDIX D
IN THE UNITED STATES DISTRICT COURT
NORTHERN DISTRICT OF TEXAS
DALLAS DIVISION
Civil Action No. 3:15-CV-01284-N
[Filed October 4, 2016]
EUNICE J. WINZER, et al.,
Plaintiffs,
v.
KAUFMAN COUNTY, et al.,
Defendants.

§
§
§
§
§
§

ORDER
This Order addresses Defendant Kaufman
County’s motion for summary judgment [78].
Because the Court previously concluded there was
no violation of Gabriel Winzer’s constitutional rights,
the Court grants Defendant Kaufman County's
motion for summary judgment.
I. ORIGINS OF THE MOTION
This case arises from the police-involved shooting
death of Gabriel Winzer. In their Third Amended
Complaint, the Winzers bring claims against
Kaufman County under 18 U.S.C. § 1983 for failure to
train its officers, and the Texas survival and wrongful
death statute, TEX. CIV. PRAC. & REM. CODE § 71.
The Winzers also brought these claims against

49a
Defendants Bill Cuellar, Garry Huddleston, and
Matthew Hinds (collectively, “Officer Defendants”).
See Third Am. Compl. 71131-59 [23]. The Court's
August 10, 2016 Order [77] granted the Defendants’
motion to dismiss all claims against Officer Cuellar
and Huddleston and granted the Defendants’ motion
for summary judgment in favor of Officer Hinds.
Kaufman County is the only remaining defendant.
Kaufman County now moves for summary
judgment. The Winzers oppose the motion.
II. THE SUMMARY JUDGMENT STANDARD
Courts “shall grant summary judgment if the
movant shows that there is no genuine dispute as to
any material fact and the movant is entitled to
judgment as a matter of law.” Fed. R. Civ. P. 56(a);
Anderson v. Liberty Lobby, Inc., 477 U.S. 242, 247
(1986). In making this determination, courts must
view all evidence and draw all reasonable inferences in
the light most favorable to the party opposing the
motion. United States v. Diebold, Inc., 369 U.S. 654,
655 (1962). The moving party bears the initial burden
of informing the court of the basis for its belief that
there is no genuine issue for trial. Celotex Corp. v.
Catrett, 477 U.S. 317, 323 (1986).
When a party bears the burden of proof on an
issue, “he must establish beyond peradventure all of
the essential elements of the claim or defense to
warrant judgment in his favor.” Fontenot v. Upjohn
Co., 780 F.2d 1190, 1194 (5th Cir. 1986). When the
nonmovant bears the burden of proof, the movant may
demonstrate entitlement to summary judgment either

50a
by (1) submitting evidence that negates the existence
of an essential element of the nonmovant’s claim or
affirmative defense, or (2) arguing that there is no
evidence to support an essential element of the
nonmovant’s claim or affirmative defense. Celotex, 477
U.S. at 322-25. Once the movant has made this
showing, the burden shifts to the nonmovant to
establish that there is a genuine issue of material fact
so that a reasonable jury might return a verdict in its
favor. Matsushita Elec. Indus. Co. v. Zenith Radio
Corp., 475 U.S. 574, 586-87 (1986). Moreover,
“[c]onclusory
allegations,
speculation,
and
unsubstantiated assertions” will not suffice to satisfy
the nonmovant’s burden. Douglass v. United Servs.
Auto. Ass 'n, 79 F.3d 1415, 1429 (5th Cir. 1996) (en
banc). Indeed, factual controversies are resolved in
favor of the nonmoving party ‘only when an actual
controversy exists, that is, when both parties have
submitted
evidence
of
contradictory
facts.’
Olabisiomotosho v. City of Hous., 185 F.3d 521, 525
(5th Cir. 1999) (quoting McCallum Highlands, Ltd.
v. Washington Capital Dus, Inc., 66 F.3d 89, 92 (5th
Cir. 1995)).
III. THE COURT GRANTS KAUFMAN COUNTY'S
MOTION

A. The Court Grants Kaufman County’s Motion for
Summary Judgment on the
Winzers’ Section 1983 Claim for Failure to Train
Kaufman County is entitled to summary judgment
on the section 1983 claim because there was no
underlying constitutional violation. To establish a
claim under section 1983, “a plaintiff must (1) allege a

51a
violation of a right secured by the Constitution or laws
of the United States and (2) demonstrate that the
alleged deprivation was committed by a person acting
under color of state law.” Whitley v. Hanna, 726 F.3d
631, 638 (5th Cir. 2013) (quotations omitted). A
municipality may be held liable under section 1983
“when execution of a government’s policy or custom,
whether made by its lawmakers or by those whose
edicts or acts may fairly be said to represent official
policy, inflicts the injury.” Monell v. Dep’t of Soc.
Servs. of City ofNew York, 436 U.S. 658, 694 (1978).
Thus, to establish a section 1983 claim against a
municipality, “a plaintiff must show that (1) an official
policy (2) promulgated by the municipal policymaker
(3) was the moving force behind the violation of a
constitutional right.” Peterson v. City of Fort Worth,
Tex., 588 F.3d 838, 847 (5th Cir. 2009). Accordingly, to
impose Monell liability, there must be a constitutional
violation. See,e.g., Pratt v. Harris Cty., Tex., 822 F.3d
174, 185 n.7 (5th Cir. 2016) (noting that “[b]ecause, as
discussed above, [the plaintiff] cannot show such a
violation, we need not address [other claims including
a failure to sufficiently train officers]”); Estate of
Pollard v. Hood Cty., Tex., 579 F. App’x 260, 267 (5th
Cir. 2014) (concluding “that the district court was
correct in holding that Hood County cannot be held
municipally liable under Monell and that Hood
County is entitled to judgment as a matter of law on
the pleadings”).
Kaufman County argues that because the Court
previously concluded there was no constitutional
violation, they cannot be held liable under Monell.
The Winzers argue they do not have to show a
constitutional violation in order to pursue the section

52a
1983 claim for failure to train. See Pls.’ Resp. to Mot.
for Summ. J. 8-13 [87]. The Winzers contend that a
municipality may be liable under section 1983 when
individual defendants are not held liable. The
Winzers are correct, a municipality may be held
liable when individual defendants are not. See
Brown v. Lyford, 243 F.3d 185, 191 (5th Cir. 2001).
For example, when individual officers are protected
by qualified immunity, and that immunity does not
extend to the municipality, the municipality may be
liable for the constitutional violation even though
individual defendants are not. Id.
While a municipality may be held liable absent
individual officers, a municipality cannot be held liable
under Monell where there is no constitutional
violation. Id. Where “no claim is stated against
officials-if plaintiff does not show any violation of his
constitutional rights-then there exists no liability to
pass through to the county.” Id. (citing City of Los
Angeles v. Heller, 475 U.S. 796, 799 (1986)). This is the
case here. After reviewing the summary judgment
evidence, the Court concluded that the Officer
Defendants did not violate G. Winzer’s constitutional
rights. See August 10, 2016 Order n.3, 16 [77].
Accordingly, Kaufman County cannot be liable under
section 1983 for a claim stemming from the actions of
the Officer Defendants because there was no
underlying constitutional violation.
A municipality can also be held liable, when
individual defendants are not, where a plaintiff’s
claim against the municipality does not derive solely
from the conduct of the individual defendants. See
Praprotnik v. City of St. Louis, 798 F.2d 1168, 1173

53a
(8th Cir. 1986). But where a claim stems solely from
the Officers’ conduct, as it does here, a municipality
cannot be held liable under section 1983. See Bustos
v. Martini Club Inc., 599 F.3d 458, 467 (5th Cir.
2010) (stating where a Plaintiff’s injuries “from his
failure-to-train claim stem solely from the Officers’
conduct” and “the Officers did not violate Bustos’s
constitutional rights, neither did the City”).
The Court previously concluded the Officer
Defendants did not violate G. Winzer’s constitutional
rights. Because there was no violation of G. Winzer’s
constitutional rights, the Winzer’s Monell claims
against Kaufman County fail as a matter of law.

B. The Court Grants Kaufman County’s Motion for
Summary Judgment on the Winzers’ State Law
Claims
Kaufman County is likewise entitled to summary
judgment on the state law claims. Under Texas law, a
wrongful death claim “derives wholly from the cause
of action that the decedent could have asserted for
personal injuries had he lived.” Delesma v. City of
Dallas, 770 F.2d 1334, 1338 (5th Cir. 1985). The
Court concluded that G. Winzer would have no viable
claim for a violation of his constitutional rights had
he lived. Nor have the Plaintiffs demonstrated that G.
Winzer would have been entitled to bring an action
against Kaufman County on other grounds, had he
lived. See Freeman v. City of Kilgore, 2014 WL
11498107, at *3 (E.D. Tex. 2014) (granting summary
judgment where Plaintiff did not demonstrate “that
[the decedent] would have been entitled to bring an
action against the City for the injury had he lived”).

54a
Because the Winzers’ state law claims are entirely
derivative of G. Winzer’s claims, and the Court has
already concluded that G. Winzer’s constitutional
rights were not violated, the Court grants summary
judgment in favor of Kaufman County.
CONCLUSION
For the forgoing reasons, the Court grants
Defendant Kaufman County’s motion for summary
judgment.
Signed October 4, 2016.

/s/ David C. Godbey
United States Judge

55a
APPENDIX E
IN THE UNITED STATES DISTRICT COURT
NORTHERN DISTRICT OF TEXAS
DALLAS DIVISION
Civil Action No. 3:15-CV-01284-N
[Filed August 10, 2016]
EUNICE J. WINZER, et al.,
Plaintiffs,
v.
KAUFMAN COUNTY, et al.,
Defendants.
ORDER

§
§
§
§
§
§

This Order addresses Defendants Bill Cuellar,
Garry Huddleston, and Matthew Hinds’s motion to
dismiss and for summary judgment [45], motion for
leave to file supplement to appendix [50], and motion
to strike [66]. The Court grants the motion to
dismiss and for summary judgment, denies the
motion for leave, and grants the motion to strike in
part.
I. ORIGINS OF THE MOTION
This case arises from the police-involved
shooting death of Gabriel Winzer.1 The undisputed
The following recitation of undisputed facts is drawn from
Appendix in Support of Plaintiffs’ Response [63] (“Plaintiffs’
1

56a
facts show that, on April 27, 2013, two Kaufman
County Sheriff’s Office deputies, Gerardo Hinojosa
and Defendant Matthew Hinds, responded to several
9-1-1 reports of an armed man who was firing a gun
and destroying mailboxes in the vicinity of County
Road 316 in Terrell, Texas. One caller reported that
the suspect had yelled, “Everyone’s going to get
theirs, and he wanted to “get back what’s mine.” The
police dispatcher relayed these reports to responding
officers.
Hinojosa and Hinds arrived in marked patrol
vehicles and located a suspect near the intersection of
County Road 316 and County Road 316A. The suspect
was a black male wearing a brown shirt. The deputies
positioned their vehicles approximately 100 to 150
yards away. In their voluntary statements, the
deputies wrote that the man fired one round in their
direction. Hinojosa and Hinds saw white smoke rise
from the gun, and Hinojosa heard a whizz go by.
Hinds reported over the radio, “Shots fired.” The
deputies did not return fire. The suspect then walked
toward County Road 316A, out of the officers’ view.
Shortly thereafter, another Sheriff’s deputy and
two state troopers from the Texas Department of
Public Safety arrived at the scene. A few people had
stepped out of their homes to observe the event, and
the officers instructed them to go back inside. Using
the PA system, the officers identified themselves as
Kaufman County Sheriff’s Office and ordered the
suspect several times to drop his gun and come toward
Appendix") and from Appendix to Memorandum in Support of
Defendants’ Motion [47].

57a
them. The suspect ducked into the tree line and out of
sight. The officers proceeded down County Road 316A
on foot, using Hinojosa’s Tahoe for cover. The officers
had their weapons drawn.
A black male, later identified as G. Winzer, then
entered County Road 316A on a bicycle approximately
100 yards down the road from the officers. G. Winzer
was wearing a blue shirt and was riding his bicycle
towards the officers. In their voluntary statements,
the officers wrote that G. Winzer appeared to be
holding a gun and was raising his arm in their
direction. One officer commented that G. Winzer had
“that gun.” Another officer yelled for G. Winzer to put
the gun down. About six seconds after G. Winzer’s
appearance, one of the officers fired a shot in his
direction. There was a brief pause, and then the
officers fired a volley of shots at G. Winzer. G.
Winzer turned his bicycle to the left and then
disappeared from view.
Several minutes later, the officers located G.
Winzer in the backyard of a home on County Road
316A. The officers later determined that G. Winzer’s
father, Henry Winzer, lived at the house. G. Winzer
had suffered four gunshot wounds to his chest,
shoulder, and upper back. H. Winzer was near his son,
trying to comfort and revive him. H. Winzer was
wearing a brown shirt. The officers ordered H. Winzer
to step away from his son and asked where the gun
was. H. Winzer tossed a plastic toy gun in the officers’
direction. The officers attempted to place handcuffs on
G. Winzer’s wrists, but he resisted. The officers tased
G. Winzer, and once they had succeeded in
handcuffing him, permitted the paramedics to enter

58a
the backyard. The paramedics pronounced G. Winzer
dead at the scene. A forensic report later detected the
presence of gunshot residue on G. Winzer’s body.
In their Third Amended Complaint, Plaintiffs
Eunice J. Winzer, Soheila Winzer, and H. Winzer
bring claims under 42 U.S.C. § 1983 and the Texas
survival and wrongful death statute, Texas Civil
Practice and Remedies Code § 71, against Defendants
Kaufman County, Bill Cuellar, Garry Huddleston, and
Matthew Hinds. See Third Am. Compl. 8-15 [23].
Cuellar and Huddleston now move to dismiss the
claims against them as barred by the statute of
limitations. Cuellar, Huddleston, and Hinds also move
for summary judgment on the basis of qualified and
official immunity.
II. THE RELEVANT LEGAL STANDARDS

A. The Rule 12(b)(6) Standard
When considering a Rule 12(b)(6) motion to
dismiss, a court must determine whether the plaintiff
has asserted a legally sufficient claim for relief.
Blackburn v. City of Marshall, 42 F.3d 925, 931 (5th
Cir. 1995). A viable complaint must include “enough
facts to state a claim to relief that is plausible on its
face.” Bell Atl. Corp. v. Twombly, 550 U.S. 544, 570
(2007). To meet this “facial plausibility” standard, a
plaintiff must “plead[] factual content that allows the
court to draw the reasonable inference that the
defendant is liable for the misconduct alleged.”
Ashcroft v. Iqbal, 556 U.S. 662, 678 (2009). A court
generally accepts well-pleaded facts as true and
construes the complaint in the light most favorable to
the plaintiff. Gines v. D.R. Horton, Inc., 699 F.3d 812,

59a
816 (5th Cir. 2012). But a court does not accept as true
“conclusory
allegations,
unwarranted
factual
inferences, or legal conclusions.” Ferrer v. Chevron
Corp., 484 F.3d 776, 780 (5th Cir. 2007). A plaintiff
must provide “more than labels and conclusions, and a
formulaic recitation of the elements of a cause of action
will not do.” Twombly, 550 U.S. at 555. “Factual
allegations must be enough to raise a right to relief
above the speculative level on the assumption that all
the allegations in the complaint are true (even if
doubtful in fact).” Id. (internal citations omitted).

B. The Summary Judgment Standard
Courts “shall grant summary judgment if the
movant shows that there is no genuine dispute as to
any material fact and the movant is entitled to
judgment as a matter of law.” FED. R. Civ. P. 56(a);
Anderson v. Liberty Lobby, Inc., 477 U.S. 242, 247
(1986). In making this determination, courts must
view all evidence and draw all reasonable inferences in
the light most favorable to the party opposing the
motion. United States v. Diebold, Inc., 369 U.S. 654,
655 (1962). The moving party bears the initial
burden of informing the court of the basis for its
belief that there is no genuine issue for trial. Celotex
Corp. v. Catrett, 477 U.S. 317, 323 (1986).
When a party bears the burden of proof on an
issue, “he must establish beyond peradventure all of
the essential elements of the claim or defense to
warrant judgment in his favor.” Fontenot v. Upjohn
Co., 780 F.2d 1190, 1194 (5th Cir. 1986). When the
nonmovant bears the burden of proof, the movant may
demonstrate entitlement to summary judgment either
by (1) submitting evidence that negates the existence

60a
of an essential element of the nonmovant’s claim or
affirmative defense, or (2) arguing that there is no
evidence to support an essential element of the
nonmovant’s claim or affirmative defense. Celotex,
477 U.S. at 322-25. Once the movant has made this
showing, the burden shifts to the nonmovant to
establish that there is a genuine issue of material fact
so that a reasonable jury might return a verdict in its
favor. Matsushita Elec. Indus. Co. v. Zenith Radio
Corp., 475 U.S. 574, 586-87 (1986). Moreover,
“[c]onclusory
allegations,
speculation,
and
unsubstantiated assertions” will not suffice to satisfy
the nonmovant’s burden. Douglass v. United Servs.
Auto. Ass’n, 79 F.3d 1415, 1429 (5th Cir. 1996) (en
banc). Indeed, factual controversies are resolved in
favor of the nonmoving party ‘only when an actual
controversy exists, that is, when both parties have
submitted
evidence
of
contradictory
facts.’
Olabisiomotosho v. City of Hous., 185 F.3d 521, 525
(5th Cir. 1999) (quoting McCallum Highlands, Ltd. v.
Washington Capital Dus, Inc., 66 F.3d 89, 92 (5th Cir.
1995)).
III. THE STATUTE OF LIMITATIONS BARS THE
CLAIMS AGAINST
CUELLAR AND HUDDLESTON
The Winzers’ claims against Cuellar and
Huddleston are barred by the statute of limitations. As
explained in the Court’s April 25, 2016 Order [69], the
applicable statute of limitations required the Winzers
to file their claims against Cuellar and Huddleston by
April 27, 2015. See Piotrowski v. City of Houston, 237
F.3d 567, 576 (5th Cir. 2001); TEX. CIV. PRAC. &
REM. CODE § 16.003(a). The Winzers did not name

61a
Cuellar and Huddleston as defendants until they filed
the Third Amended Complaint on September 21, 2015.
See Third Am. Compl. [23]. Clearly, the Winzers failed
to bring these claims within the applicable limitations
period.
The Winzers nonetheless contend that their claims
relate back to the filing of their original complaints. The
Court may relate the Third Amended Complaint back
to the dates of the Winzers’ original complaints if: (1)
the basic claim arose out of the conduct set forth in
their original complaints; (2) the parties to be brought
in received such notice that they will not be prejudiced
in maintaining their defense; (3) the parties knew or
should have known that, but for a mistake concerning
identity, the action would have been brought against
them; and (4) the second and third requirements were
fulfilled within the prescribed limitations period. See
FED. R. Civ. P. 15(c); Jacobsen v. Osborne, 133 F.3d
315, 319 (5th Cir. 1998) (citing Schiavone v. Fortune,
477 U.S. 21, 29 (1986)). Rule 15(c) is “meant to allow an
amendment changing the name of a party to relate
back to the original complaint only if the change is the
result of an error, such as a misnomer or
misidentification.” Jacobsen, 133 F.3d at 320 (internal
quotation marks and citation omitted).
The Winzers’ failure to name Cuellar and
Huddleston as defendants was not due to misnomer
or misidentification. Neither Henry Winzer’s
Complaint, see Compl. [1], in Henry A. Winzer v.
Matthew Hinds, et al., Civil Action No. 3:15-CV-1295N-BH (N.D. Tex. filed April 22, 2015), nor the
Winzers’ Notice of Claim [3] gave any indication that

62a
Cuellar and Huddleston were defendants. 2 The
Winzers argue that, at the time they filed their
original complaints, they were appearing pro se and
were under the mistaken impression that they could
not sue the individual officers. But the statute of
limitations on section 1983 actions and the strict
requirements of Rule 15(c) apply equally to
represented and unrepresented plaintiffs. See, e.g.,
Singleton v. Stiles, 992 F.2d 323, 323 (5th Cir. 1993)
(holding Rule 15(c) did not permit the addition of a
defendant not named in an original pro se pleading
because the plaintiff “never intended” to include the
defendant in the original pleading). The Winzers’
“conscious choice to sue one party and not another
does not constitute a mistake and is not a basis for
relation back.” Sanders-Burns v. City of Plano, 594
F.3d 366, 379 (5th Cir. 2010).
Because neither Cuellar nor Huddleston knew or
should have known that but for a mistake of identity
he would have been named in the Winzers’ original
pleadings, Rule15(c)’s relation back provision does
not apply. Accordingly, the Court dismisses all
claims against Cuellar and Huddleston.

Throughout their original complaints, the Winzers allege
that unnamed Kaufman County Sheriff’s Office deputies were
involved in the alleged constitutional violations. See Compl. 4-5
[1], in Henry A. Winzer v. Matthew Hinds, et al., Civil Action
No. 3:15-CV-1295-N-BH (N.D. Tex. filed April 22, 2015); Notice
of Claim 2-3 [3]. However, even if the Court assumes that these
mentions implicate the unknown deputies as defendants, “Rule
15(c) does not apply when John Doe defendants are named
after the statute of limitations has run.” Myers v. Nash, 464
Fed. App’x 348, 349 (5th Cir. 2012).
2

63a
IV. OBJECTIONS TO SUMMARY JUDGMENT
EVIDENCE AND SUPPLEMENTAL FILINGS
The parties filed multiple objections to evidence
offered in support of and in opposition to Hinds’s 3
motion for summary judgment. Each party also
objects to the Court’s consideration of supplemental
filings submitted in support of and in opposition to
the motion. The Court considers each of these
objections in turn.

A. Motion to Strike the Winzers' Sur-Reply
The Winzers filed a response to Hinds’s
objections to their summary judgment evidence (the
“Response”) [65]. Hinds moves to strike the
Response, arguing that it functions as a sur-reply to
the motion for summary judgment. The Winzers
oppose the motion, and in the alternative, seek leave
to file the Response as a sur-reply.
The Response is problematic because it cites
new evidence not presented in the Winzers’ original
response to the motion for summary judgment. The
new evidence includes recent news coverage of the
shooting and comments from the Kaufman County
Sheriff. See Resp. 4. The remainder of the Response,
however, serves the permissible purpose of
responding to Hinds’s objections. Hinds made these
objections for the first time in his reply, and the
3Cuellar

and Huddleston also moved for summary judgment.
The analysis of Hinds’s motion for summary judgment and the
related objections and supplemental filings would have applied
equally to these officers, had the statute of limitations not
barred the Winzers’ claims against them.

64a
Winzers have not had any other opportunity to
respond to them.
“[L]eave to file a surreply may be granted . . . to
allow the nonmovants a chance to respond to the
movant’s newly-asserted theories or evidence.” See
Lombardi v. Bank ofAm., 2014 WL 988541, at *3
(N.D. Tex. 2014) (internal citation and quotation
marks omitted). Because the Winzers have not had an
opportunity to respond to Hinds’s evidentiary
objections, the Court grants leave to file the sur-reply.
However, the Court strikes the new evidence
presented in the Response and will not consider it in
the course of deciding Hinds’s motion for summary
judgment.

B. Objections to Summary Judgment Evidence
The parties objected to several pieces of evidence
presented in support of and in opposition to the
motion for summary judgment. Under Rule 56, “[a]
party may object that the material cited to support
or dispute a fact cannot be presented in a form that
would be admissible in evidence.” FED. R. CIV. P.
56(c)(2). ‘[T]he admissibility of summary judgment
evidence is subject to the same rules of admissibility
applicable at trial.’ Pegram v. Hollowell, Inc., 361
F.3d 272, 285 (5th Cir. 2004) (quoting Resolution
Trust Corp. v. Starkey, 41 F.3d 1018, 1024 (5th Cir.
1995)).
Hinds objects to two expert affidavits that the
Winzers submitted in support of their response to the
motion. Expert testimony is admissible if: (1) the
expert is qualified; (2) the testimony is relevant to the

65a
lawsuit; and (3) the testimony is reliable. FED. R.
Evil). 702; Kumho Tire Co., Ltd. v. Carmichael, 526
U.S. 137, 147 (1999). Hinds asks the Court to
disregard the testimony of forensic enhancement
expert James Appleton because several of his
statements fall outside his realm of expertise. The
Court agrees that Appleton is not qualified to opine
on G. Winzer’s physical capabilities or the
reasonableness of Hinds’s actions. Cf. Smith v.
Goodyear Tire & Rubber Co., 495 F.3d 224, 226-27
(5th Cir. 2007) (excluding polymer scientist’s
testimony about tire design). The Court sustains this
objection and strikes Appleton’s statements
regarding these subjects.
Hinds further asks the Court to disregard the
testimony of law enforcement expert Jerry Staton.
Hinds specifically objects to the following statements:
(1) that the gun residue found on G. Winzer “could
have been transferred” during his arrest, see Pls.’
App. 13; (2) that there is “little doubt” the officers
could have won a potential gunfight with G. Winzer,
see id.; (3) that the 9-1-1 callers would have
identified the suspect as G. Winzer if it was in fact
him, see id. at 13-14; and (4) that there is
“considerable doubt” as to whether G. Winzer was
the person who shot at Hinds when he first arrived
on the scene, see id. Upon consideration of a motion
for summary judgment, the Court disregards
“[u]nsubstantiated assertions, improbable inferences,
and unsupported speculation.” Brown v. City of
Houston, Tex., 337 F.3d 539, 541 (5th Cir. 2003).
After evaluating Staton’s affidavit, the Court agrees
that Staton’s statements regarding the gun residue
and the 9-1-1 callers are speculative and lack

66a
foundation. The Court sustains Hinds’s objections
and will not consider these statements in deciding
the summary judgment motion. The Court overrules
Hinds’s objections to the other statements.
Hinds also objects to an affidavit from H. Winzer
because it conflicts with prior statements he made
regarding G. Winzer’s possession of a gun. In the
affidavit, H. Winzer claims that G. Winzer was
unarmed and did not have any object resembling a
gun in his hands at the time of the shooting. This
statement contradicts H. Winzer’s prior allegation
that G. Winzer was carrying a toy gun in his hand
when he rode out on his bicycle. See Compl. 4 [1], in
Henry A. Winzer v. Matthew Hinds, et al., Civil
Action No. 3:15-CV-1295-N-BH (N.D. Tex. filed April
22, 2015); see also Attachments to Notice of Claim 12
[4]. Under the “sham affidavit” doctrine, a
“nonmovant cannot defeat a motion for summary
judgment by submitting an affidavit which directly
contradicts, without explanation, his previous
testimony.” Albertson v. T.J. Stevenson & Co., Inc.,
749 F .2d 223, 228 (5th Cir. 1996). Because G. Winzer
has not provided an explanation for his inconsistent
statements, the Court sustains Hinds’s objection. The
Court will disregard H. Winzer’s assertion that G.
Winzer was not holding any object at the time of the
shooting.
Lastly, the Winzers make several broad objections
to the admissibility of the officers’ affidavits. The
Winzers argue that the affidavits contain
unsubstantiated assertions and hearsay evidence, but
the Winzers do not identify any particular examples.
“An affidavit or declaration used to support or oppose

67a
a motion must be made on personal knowledge, set
out facts that would be admissible in evidence, and
show that the affiant or declarant is competent to
testify on the matters stated.” FED. R. Civ. P. 56
(c)(4). However, without further elaboration from the
Winzers, the Court is unable to determine which parts
of the affidavits are at issue. See, e.g., Palo v. Dallas
Cty., 2007 WL 2140590, at *8 (N.D. Tex. 2007)
(rejecting overly general objections to summary
judgment evidence because they may refer to
admissible evidence). The Court overrules these
objections.

C. Motion for Leave to Supplement Hinds’s
Appendix
Hinds moves to supplement his appendix in
support of the motion for summary judgment.
Hinds’s supplemental evidence consists of enhanced
video and audio recording of the moment at which
the suspect allegedly fired a gun in the direction of
first responders Hinds and Hinojosa. The Court
denies leave to submit this evidence.
Local Civil Rule 56.7 provides that a party may
not file supplemental material without the Court’s
permission. Hinds represents that he requested the
enhanced video and audio recording prior to
submitting his motion for summary judgment, but
that the forensics laboratory did not return the final
work product until a week after the motion deadline.
Hinds has not explained why the forensics laboratory
was unable to return the report in time for its
inclusion in his original appendix. Hinds did not seek
an extension of time to file the motion for summary
judgment. Moreover, the enhanced video and audio

68a
recording presents only minimally probative evidence.
No suspect is visible in the enhanced video. And
although the audio recording bolsters Hinds’s claim
that someone fired a gun at him, Hinds has other
evidence to support this claim.
The Court holds that Hinds
demonstrated good cause to include
submission with his summary judgment
The Court denies Hinds leave to
supplemental video and audio evidence.

has not
the late
appendix.
file the

V. HINDS IS ENTITLED TO QUALIFIED
IMMUNITY ON THE SECTION 1983 CLAIM

A. The Qualified Immunity Standard
“Qualified immunity is a defense available to
public officials performing discretionary functions ‘. . .
insofar as their conduct does not violate clearly
established statutory or constitutional rights of which
a reasonable person should have known.’ Noyola v.
Texas Dep’t of Human Resources, 846 F.2d 1021,
1024 (5th Cir. 1988) (quoting Harlow v. Fitzgerald,
457 U.S. 800, 818 (1982)). This doctrine balances two
interests: “the need to hold public officials
accountable when they exercise power irresponsibly
and the need to shield officials from harassment,
distraction, and liability when they perform their
duties reasonably.” Pearson v. Callahan, 555 U.S.
223, 231 (2009). Because “qualified immunity is
designed to shield from civil liability ‘all but the
plainly incompetent or those who knowingly violate
the law,’ denial of qualified immunity is appropriate
only in rare circumstances. Brady v. Ford Bend Cty.,

69a
58 F.3d 173, 173-74 (5th Cir. 1995) (quoting Malley
v. Briggs, 475 U.S. 335, 341 (1986)).
To resolve a public official’s qualified immunity
claim, a court must consider two factors. First, has
the plaintiff shown a violation of a constitutional
right? Saucier v. Katz, 533 U.S. 194, 201 (2001).
And, second, was the right “clearly established” at
the time of the public official’s alleged misconduct?
Id. The second inquiry is critical: unless the official
violated a clearly established constitutional right,
qualified immunity applies. Pearson, 555 U.S. at
231. “The judges of the district courts . . . [may]
exercise their sound discretion in deciding which of
the two prongs of the qualified immunity analysis
should be addressed first in light of the
circumstances in the particular case at hand.” Id. at
235. “But under either prong, courts may not resolve
genuine disputes of fact in favor of the party seeking
summary judgment.” Tolan v. Cotton, 134 S. Ct.
1861, 1866 (2014).

B. Hinds’s Use of Deadly Force Was Objectively
Reasonable
The Winzers claim that Hinds used excessive
force in violation of G. Winzer’s constitutional rights
under the Fourth Amendment. An excessive force
claim requires proof of “(1) an injury, (2) which
resulted from the use of force that was clearly
excessive to the need, and (3) the excessiveness of
which was objectively unreasonable.” See Mason
v.Lafayette City-Parish Consol. Gov’t, 806 F.3d 268,
275 (5th Cir. 2015) (internal quotation marks and
citation omitted). An officer’s use of deadly force is not
excessive when the officer has “probable cause to

70a
believe that the suspect poses a threat of serious
physical harm, either to the officer or to others.” Id.
(quoting Tennessee v. Garner, 471 U.S. 1, 11 (1985)).
When evaluating the objective reasonableness of
an officer’s conduct, courts must “pay careful attention
to the facts and circumstances of each particular case,
including (1) the severity of the crime at issue, (2)
whether the suspect poses an immediate threat to the
safety of the officers or others, and (3) whether he is
actively resisting arrest or attempting to evade arrest
by flight.” Id. at 276 (internal quotation marks and
citation omitted). Courts should “make ‘allowance for
the fact that police officers are often forced to make
split-second judgments — in circumstances that are
tense, uncertain, and rapidly evolving — about the
amount of force that is necessary in a particular
situation.’” Id. (quoting Graham v. Connor, 490 U.S.
386, 396-97 (1989)). Finally, when evaluating an
officer’s use of force, courts must view the
circumstances “from the perspective of a reasonable
officer on the scene, rather than with the 20/20 vision
of hindsight.” Id. (quoting Graham, 490 U.S. at 396).
Hinds and his fellow officers were in an especially
tense situation. An armed and reportedly agitated
individual had already shot at them once and
disappeared. The officers were uncertain of the
suspect’s whereabouts. The parties presented
conflicting evidence as to whether G. Winzer was the
same person who fired upon Hinds, and for purposes
of the summary judgment motion, the Court assumes

71a
that G. Winzer never fired upon the officers himself.4
Nevertheless, a reasonable officer on the scene at the
time could have easily drawn the inference that the
black man cycling towards five armed police officers,
disregarding their orders to drop his weapon, and
raising his arm in their direction 5 was the same
black man who had so brazenly fired upon them just
around the corner.
The Winzers contend that G. Winzer was carrying
a bright orange toy gun6 at the time of the shooting and
did not present any threat to the officers. The Winzers
also maintain that G. Winzer’s appearance did not
match the description given by 9-1-1 callers and
4 In fact, the 9-1-1 callers and officers’ descriptions of the
suspect, G. Winzer, and H. Winzer all suggest that the officers
initially encountered H. Winzer on County Road 316A. In his
affidavit, H. Winzer admits that he was walking along County
Road 316A shortly before the shooting and that he went inside
his house after noticing a patrol car was following him.
5 In his opinion Staton claims, “Enhanced video from the
event reveals Winzer was not armed and did not reach towards
his waist band and then extend his arm like he was about to
fire a gun.” Pl.’s App. 13. Appleton similarly opines, “Both of [G.
Winzer’s] hands appear to be on the handle bars . . . . [G.
Winzer] makes no hand movements while riding his bicycle.”
Id. at 19. After reviewing the submitted video, the Court finds
these claims are unsubstantiated and disregards them for
purposes of the summary judgment motion.

The parties presented conflicting evidence as to whether G.
Winzer was carrying a real gun, a cap gun, a realistic plastic
gun, or a bright orange toy gun when he rode out on his bicycle.
For purposes of the summary judgment motion, the Court
assumes that G. Winzer was holding a bright orange toy gun at
the time of the shooting.
6

72a
relayed by the police dispatcher. Somewhat
contradictorily, the Winzers further assert that the
officers were too far away from G. Winzer to positively
identify him or to see the bright orange toy gun in his
hand. Perhaps most importantly, however, at least one
of the officers, upon sighting G. Winzer, yelled at him
to drop the gun. Even if the other officers could not see
the gun from that distance, they could have reasonably
relied on this exclamation in forming the belief that G.
Winzer was indeed armed. In light of all the facts, the
Court finds that Hinds had probable cause to believe
that G. Winzer posed a threat of serious physical
harm to himself, his fellow officers, and other
individuals in the neighborhood.7
The Winzers’ law enforcement expert, Staton,
opines that “[h]ad Winzer engaged [the officers] at
that distance with a handgun there would be little
doubt the officers would have easily ‘won the
gunfight.’” Pl.'s App. 13. The Court sees little
relevance in this opinion. Police officers do not need to
wait for an assailant to fire the first shot before taking
actions to preserve their own lives. Staton’s opinion
also does not account for the safety of any bystanders
in the area. When the armed suspect initially
disappeared down County Road 316A, the officers
7See,

e.g., Bell v. City of East Cleveland, 125 F.3d 855, 1997
WL 640116, at *3 (6th Cir. 1997) (holding officer had probable
cause to use deadly force where 9-1-1 caller reported young
victim had gun, victim disregarded officer’s orders, and victim
raised arm holding realistic toy gun in the officer’s direction);
but see Nance v. Sammis, 586 F.3d 604, 610 (8th Cir. 2009)
(reversing summary judgment where evidence contradicted
officers’ claim that they identified themselves as police officers,
young victim had a real gun and not a toy gun, and victim
raised hand with gun before shooting).

73a
proceeded slowly, using the Tahoe for cover, and
instructed residents to get back inside their homes.
And when G. Winzer suddenly appeared on the road,
riding his bicycle towards the officers, they yelled at
him to put the gun down. Staton does not offer any
alternative protocol that the officers should have
followed up to this point.
Hinds had probable cause to believe that G.
Winzer posed a threat of serious bodily harm. His
use of deadly force was objectively reasonable under
the circumstances. Because Hinds did not violate G.
Winzer’s constitutional rights, the Court grants
summary judgment in favor of Hinds on the Winzers’
section 1983 claim.
VI. THE COURT GRANTS SUMMARY
JUDGMENT ON THE STATE LAW CLAIMS
The Winzers bring claims under Texas state law
for wrongful death and survival. “Texas law grants
official immunity to an officer who was (1) performing
discretionary duties; (2) in good faith; and (3) while
acting within the scope of his authority.” Austin v.
Johnson, 328 F.3d 204, 210-11 (5th Cir. 2003) (citing
City of Lancaster v. Chambers, 883 S.W.2d 650, 653
(Tex. 1994)). The Texas standard for official immunity
is “substantially” the same as the federal test for
qualified immunity. Chambers, 883 S.W.2d at 656.
Because Hinds is entitled to qualified immunity on
the section 1983 claim, the Court holds that he is
entitled to official immunity on the state law claims as
well. The Court grants summary judgment on the
wrongful death and survival claims in favor of Hinds.

74a
CONCLUSION
The Court denies the motion for leave to
supplement appendix. The Court grants in part and
denies in part the motion to strike. The Court grants
the motion to dismiss and for summary judgment. The
Court dismisses all claims against Cuellar and
Huddleston. The Court grants summary judgment on
all claims against Hinds. The Winzers’ claims against
Defendant Kaufman County remain pending.
Signed August 10, 2016.
/s/ David C. Godbey
United States District Judge

